ACTIONS TAKEN AND NEEDED FOR
  IMPROVING PIPELINE SAFETY

Research and Special Programs Administration


        Report Number: SC-2004-064

         Date Issued: June 14, 2004
           U.S. Department of
                                                               Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Audit Report on Actions Taken and                                       Date:   June 14, 2004
           Needed for Pipeline Safety
           Research and Special Programs Administration
           SC-2004-064

  From:    Alexis M. Stefani                                                         Reply to
                                                                                     Attn. of:     JA-60
           Principal Assistant Inspector General
            for Auditing and Evaluation

    To:    Deputy Administrator
           Research and Special Programs Administration

           This report presents the results of our review of the Research and Special
           Programs Administration (RSPA) Office of Pipeline Safety’s (OPS) progress in
           implementing the recommendations in the Office of Inspector General’s March
           2000 report,1 which were later mandated in the Pipeline Safety Improvement Act
           of 2002. That Act requires the Inspector General to report periodically to
           Congress on OPS’s progress in implementing the recommendations and to identify
           options for OPS to consider in expediting implementation of the
           recommendations. The full report follows this memorandum.

           Our objective was to assess OPS’s progress in implementing the Office of
           Inspector General recommendations for improving pipeline safety to determine
           whether actions taken were sufficient to correct the weaknesses found in OPS’s
           pipeline safety program. Specifically, we assessed whether OPS has (1) fulfilled
           pipeline safety mandates from legislation enacted in 1992 and 1996, (2) expanded
           research and development to improve technologies used in pipeline inspections,
           (3) provided specialized training to pipeline inspectors on technologies used in and
           reports generated from pipeline inspections, (4) corrected shortcomings in pipeline
           data collection and analysis, and (5) established timetables to implement open
           National Transportation Safety Board (NTSB) pipeline safety recommendations.
           Given the importance of protecting the Nation’s infrastructure of pipeline systems,
           we also reviewed OPS’s involvement in the security of pipeline systems.



           1
               OIG Report Number RT-2000-069, “Pipeline Safety Program,” March 13, 2000.
                                                                                   2

A draft of this report was provided to RSPA on May 4, 2004. In its comments,
RSPA agreed in general with our recommendations and stated that work is
underway to address all outstanding issues identified in the draft report. For six of
seven recommendations, we consider RSPA comments to be positive and
constructive, and RSPA actions taken and planned for the recommendations are
reasonable. Specifically, RSPA agreed to ensure that OPS:

•   Completes its actions on the remaining six mandates from legislation enacted
    in 1992 and 1996 by December 2004.

•   Completes its internet-based system for monitoring its research and
    development projects’ costs, schedules, and performance by October 2004.

•   Finalizes and implements “best practices” for its internal review process,
    including procedures to review data quality and to ensure that the operators
    are providing current, complete, and accurate accident information by March
    2005.

•   Completes its actions to close out the remaining five NTSB recommendations
    identified in this report by December 2005.

•   Uses both the Department of Transportation (DOT) and RSPA policies and
    procedures for addressing NTSB recommendations. According to OPS, it is
    currently doing so.

•   Clarifies its security roles and responsibilities with the Department of Energy
    by November 2004.

However, for one recommendation RSPA comments were not fully responsive,
and we are requesting some additional information.

We recommended that RSPA ensure that OPS require operators of natural gas
distribution pipelines to implement some form of pipeline integrity management or
enhanced safety program with the same or similar integrity management elements
as the hazardous liquid and natural gas transmission pipelines. In its response,
RSPA stated that industry, state, and Federal regulators are now working to
develop natural gas distribution integrity management programs (IMPs), and that a
public workshop to discuss IMP concepts is planned for December 2004.

Other than indicating that it is working with the states and industry to develop an
IMP for natural gas distribution pipelines and plans to hold a public workshop to
discuss IMP concepts in December 2004, RSPA did not indicate when they expect
to require an IMP for natural gas distribution pipelines. We are requesting RSPA
to clarify this within the next 30 days.
                                                                                                                        3

We are withdrawing our recommendation that RSPA ensure that OPS petition the
DOT, through RSPA, to execute a Memorandum of Agreement or Memorandum
of Understanding (MOU) with Department of Homeland Security (DHS),
formalizing the security roles and responsibilities of OPS and DHS’s
Transportation Security Administration. Since we made this recommendation,
DOT’s Deputy Secretary has made it clear that an MOU is needed, and we
understand that the Deputy Secretary has communicated this to DHS. Hopefully
an MOU between DOT and DHS can be consummated by September 1, 2004.
DOT should keep the appropriate Congressional committees apprised of its
progress in consummating an MOU with DHS.

In commenting on the findings in the draft report, there was one issue that RSPA
believed needed to be clarified. In the draft report, we stated that natural gas
distribution pipelines were excepted from integrity management safety mandates
that govern hazardous liquid and natural gas transmission pipelines.

According to RSPA:

        The statement was misleading in that it implies that OPS has taken
        action to “except” gas distribution pipelines from the integrity
        management programs. The fact is, Federal law only mandated that
        transmission pipelines be assessed, so the Office of Pipeline Safety
        (OPS) only addressed transmission pipelines first.

We never intended to imply that OPS had excepted natural gas distribution from
the IMPs and are aware that the Pipeline Safety Improvement Act of 2002
mandated IMPs only for operators of natural gas transmission pipelines. Section
14 of the 2002 Act required each operator of a gas pipeline facility2 subject to
49 United States Code Section 60109 to adopt and implement an IMP. However,
natural gas distribution pipelines are excepted from Section 60109 requirements.
We have revised our report to clarify that operators of natural gas distribution
pipelines are not required to implement IMPs.

In accordance with DOT Order 8000.1C, we request that you clarify your response
and provide specific corrective action dates for the recommendation discussed
above. We would appreciate receiving your written comments within 30 days.
The other recommendations are considered resolved subject to the follow-up
provisions of Department of Transportation Order 8000.1C.

We appreciate the courtesies and cooperation of representatives from OPS and the
pipeline industry during this audit. If you have any questions concerning this

2
    A gas pipeline facility is defined as new and existing pipeline, right-of-way, and any equipment, facility, or building
    used in the transportation of gas or in the treatment of gas during the course of transportation. Transportation of gas
    is defined as the “gathering, transmission, or distribution of gas by pipeline or the storage of gas, in or affecting
    interstate or foreign commerce [italics added].”
                                                                          4

report, please call me at (202) 366-1992 or Robin K. Hunt, Deputy Assistant
Inspector General for Hazardous Materials, Security and Special Programs, at
(415) 744-3090.

Attachment

                                        #

cc: Associate Administrator for Pipeline Safety
                                        Executive Summary
                                    Actions Taken and Needed For
                                      Improving Pipeline Safety
                    Research and Special Programs Administration

Report No. SC-2004-064                                                                                 June 14, 2004

OBJECTIVE
   Our objective was to assess the Office of Pipeline Safety’s (OPS) progress in
   implementing the Office of Inspector General (OIG) recommendations for
   improving pipeline safety to determine whether actions taken were sufficient to
   correct the weaknesses found in OPS’s pipeline safety program. Specifically, we
   assessed whether OPS has (1) fulfilled pipeline safety mandates from legislation
   enacted in 1992 and 1996, (2) expanded research and development to improve
   technologies used in pipeline inspections, (3) provided specialized training to
   pipeline inspectors on technologies used in and reports generated from pipeline
   inspections, (4) corrected shortcomings in pipeline data collection and analysis,
   and (5) established timetables to implement open National Transportation Safety
   Board (NTSB) pipeline safety recommendations. Given the importance of
   protecting the Nation’s infrastructure of pipeline systems, we also reviewed OPS’s
   involvement in the security of pipeline systems.3


BACKGROUND
   OPS is responsible for overseeing the safety of the Nation’s pipeline system, an
   elaborate network of more than 2 million miles of pipe moving millions of gallons
   of hazardous liquids and more than 55 billion cubic feet of natural gas daily.
   Exhibit A contains a diagram of the natural gas pipeline system. Exhibit B
   contains a glossary of terms used in the pipeline industry.

   The pipeline system is composed of predominantly three segments—natural gas
   transmission pipelines, natural gas distribution pipelines, and hazardous liquid
   transmission pipelines—run by about 2,200 natural gas pipeline operators4 and

   3
       We first raised our concerns about security of the Nation’s pipeline systems in testimony presented before the House
       Subcommittee on Highways and Transit in February 2002 (OIG Number CC-2002-103, “Reauthorization of the
       Pipeline Safety Program,” February 13, 2002).
   4
       Of the 2,200 operators of natural gas distribution and transmission pipelines, there are approximately 1,300 operators
       of natural gas distribution pipelines and 880 operators of natural gas transmission pipelines.


   Executi ve Summar y                                                                                                     i
220 operators of hazardous liquid pipelines. There are approximately 90 Federal
and 400 state inspectors responsible for overseeing the operators’ compliance with
pipeline safety regulations.

Although moving commodities such as crude oil, diesel fuel, gasoline, and natural
gas through pipelines is safer than moving the same commodities on other modes
of transportation (e.g., barges, rail, trucks), pipeline incidents can have
catastrophic consequences, such as the deadly pipeline rupture, explosion, and fire
in the Bellingham, Washington, area in June 1999.

On June 10, 1999, a 16-inch-diameter pipe near Bellingham ruptured, discharging
237,000 gallons of gasoline into a nearby creek. The fuel ignited, killing
three people and injuring eight others, with property damage estimated at
$45 million in 2002. In the largest criminal and civil settlement ever obtained in a
pipeline rupture case, two pipeline companies agreed to pay $113 million to
resolve criminal and civil penalties arising from the accident and to ensure the
safety of their pipelines. The charges, the first ever brought under the Hazardous
Liquid Pipeline Safety Act of 1979, as amended, included three criminal counts
for violating the Act, which sets minimum safety standards for training employees
who operate interstate pipelines that carry hazardous liquids.

As a result of the accident, Senator Patty L. Murray requested that the OIG review
OPS’s role in promoting and overseeing pipeline safety. In March 2000, we
reported that weaknesses existed in OPS’s pipeline safety program and made
recommendations designed to correct these weaknesses. These recommendations
were later mandated in the Pipeline Safety Improvement Act of 20025 (2002 Act),
which also required OIG to assess OPS’s progress to:

           • Fulfill the pipeline safety mandates from legislation enacted in 1992 and
             1996.

           • Expand the focus of OPS research and development (R&D) to improve
             the capabilities of technologies used to inspect the integrity of pipeline
             systems.

           • Design and implement a program to train safety inspectors on the use of
             internal inspection devices (referred to as “smart pigs”6) and the
             interpretation of the results.

           • Correct shortcomings in collection and analysis of pipeline accident
             data.

5
    Public Law 107-355, dated December 17, 2002.
6
    A “smart pig” is an instrumented internal inspection device that traverses a pipeline to detect potentially dangerous
    defects, such as corrosion.


Executi ve Summar y                                                                                                   ii
              • Establish timetables to implement open National Transportation Safety
                Board pipeline safety recommendations.

  Our recommendations were issued while OPS was finalizing its Pipeline Risk
  Management Demonstration Program,7 mandated by the Accountable Pipeline
  Safety and Partnership Act of 1996. According to OPS, this program was
  designed to “test whether allowing operators the flexibility to allocate safety
  resources through risk management is an effective way to improve safety,
  environmental protection, and reliability of pipeline operations.” OPS concluded
  from the results of the Demonstration Program that there was potential for
  developing effective safety management processes that would protect the public
  and environment and provide more useful information about the integrity of the
  Nation’s pipeline systems.

  Consequently, this risk-based approach to overseeing pipeline safety evolved into
  what OPS has termed as “integrity management” and requires pipeline operators
  to develop integrity management programs (IMPs)8 to “assess, evaluate, repair and
  validate through comprehensive analysis the integrity of pipeline segments that, in
  the event of a leak or failure, could affect populated areas, areas unusually
  sensitive to environmental damage and commercially navigable waterways.”


RESULTS IN BRIEF
  Historically, OPS was slow to implement critical pipeline safety initiatives,
  congressionally mandated or otherwise, and to improve its oversight of the
  pipeline industry. The lack of responsiveness prompted Congress to repeatedly
  mandate basic elements of a pipeline safety program, such as requirements to
  periodically inspect pipelines and to use smart pigs to inspect pipelines. In recent
  years, however, OPS has implemented several actions to improve pipeline safety,
  such as requiring IMPs for operators of hazardous liquid and natural gas
  transmission pipelines, which they use to assess their pipelines for risk of a leak or
  failure, to take action to mitigate the risks, and to develop program performance
  measures.


  7
       OPS’s Pipeline Risk Management Demonstration Program comprised several projects nationwide that evaluated
       different aspects of pipeline systems’ operations for ways to improve safety management and performance.
  8
      The Integrity Management Program is a documented set of policies, processes, and procedures that includes, at a
       minimum, the following elements: (1) a process for determining which pipeline segments could affect a
       high-consequence area, (2) a baseline assessment plan, (3) a process for continual integrity assessment and
       evaluation, (4) an analytical process that integrates all available information about pipeline integrity and the
       consequences of a failure, (5) repair criteria to address issues identified by the integrity assessment and data analysis,
       (6) features identified through internal inspection, (7) a process to identify and evaluate preventive and mitigative
       measures to protect high-consequence areas, (8) methods to measure the program’s effectiveness, and (9) a process
       for review of integrity assessment results and data analysis by a qualified individual.


  Executi ve Summar y                                                                                                        iii
While OPS has made progress in implementing the recommendations, the work is
not done. The current situation is far from an “end state” for ensuring the safety of
the Nation’s pipeline system. The IMP is in the early stages of implementation,
and there is clearly not enough evidence available to evaluate its effectiveness in
strengthening pipeline safety. It is significant that this is the first time that
baseline integrity inspections are being established systemwide—starting with
hazardous liquid pipelines—so there are no comparable benchmarks.

Also, it is important to note that even though IMP rules for hazardous liquids and
natural gas transmission pipelines have been issued in their final form, they will
not be fully implemented nationwide for at least 8 years. For example, the
operators of hazardous liquid pipelines have 7 years from the effective date of the
final rule to complete baseline inspections, which will be March 2008. This is a
key issue as the IMP is the backbone of OPS’s risk-based approach to overseeing
pipeline safety.

Nevertheless, as they begin implementing their IMPs, there are early signs that the
baseline integrity inspections are working well for operators of hazardous liquid
pipelines and that there was clearly a need for such inspections. So far, according
to OPS, results from the operators baseline integrity inspections show that more
than 20,000 integrity threats were identified for remediation.9 This many
threats—20,000—may not have been discovered during the operators’ routine
inspections.

While implementing the IMP goes a long way in promoting the safe, reliable, and
environmentally sound operation of the Nation’s pipeline system, only operators
of hazardous liquid and natural gas transmission pipelines are required to
implement IMPs and not operators of natural gas distribution pipelines.10
Distribution is the final step in delivering natural gas to end users such as homes,
businesses, and industries. Nearly all of the natural gas distribution pipelines are
located in highly populated areas, such as business districts and residential
communities, where a rupture could have the most significant consequences.

Our concern is that the Department’s strategic safety goal is to reduce the number
of transportation-related fatalities and injuries, but natural gas distribution
pipelines are not achieving this goal. For the 10-year period from 1994 through
2003, accidents in natural gas distribution pipelines have resulted in more fatalities
and injuries than hazardous liquid and natural gas transmission lines combined.

9
     OPS’s remediation criteria encompass a broad range of actions, which include mitigative measures (e.g., reducing
     the pipeline pressure flow) as well as repairs that an operator can take to resolve an integrity threat. For immediate
     repairs, an operator must temporarily reduce operating pressure or shut down the pipeline until the operator
     completes the repairs.
10
     Many operators of natural gas transmission pipelines are also operators of natural gas distribution pipelines. IMP
     requirements do not apply to their distribution pipelines.


Executi ve Summar y                                                                                                    iv
Although OPS has moved forward with initiatives to enhance the safety of natural
gas distribution pipelines, OPS needs to ensure that the pace of its efforts moves
quickly enough given that there has been no steady decreasing trend in the number
of accidents, fatalities, and injuries involving natural gas distribution pipelines.

OPS’s progress in implementing the recommendations in our March 2000 report
follows, as well as further actions that need to be taken to improve the safety and
security of the Nation’s pipeline system.

       • OPS implemented most, but not all, mandates from legislation enacted
         in 1992 and 1996. Of the 31 mandates from legislation enacted in 1992
         and 1996, 25 mandates have been implemented, 17 of which were
         implemented since our March 2000 report. In the most noteworthy
         example, OPS issued final rules requiring IMPs for operators of all
         hazardous liquid pipelines.

          OPS has also made considerable progress in meeting the 23 mandates
          from the 2002 Act, such as requiring IMPs for operators of natural gas
          transmission pipelines. This accomplishment is noteworthy because the
          IMP final rule for operators of natural gas transmission pipelines was
          issued on December 15, 2003, only 1 year after the enactment of the
          2002 Act.

          Also in the past year, OPS completed the development of its national
          pipeline mapping system (NPMS), an initiative the pipeline industry
          was reluctant to support, so Congress mandated it in the 2002 Act. This
          is also a significant because in order to provide effective oversight of
          the Nation’s pipeline system, OPS must first know where the pipelines
          are located, the size and material type of the pipe, and the types of
          products being delivered.

          NPMS is fully operational and has mapped 100 percent of the hazardous
          liquid (approximately 160,000 miles of pipeline) and natural gas
          transmission (more than 326,000 miles) pipeline systems operating in
          the United States. Congress exempted natural gas distribution pipelines
          from the mapping mandate, so currently OPS does not have mapping
          data on the approximately 1.8 million miles of this type of pipeline.

          As a result, Government agencies and industry have access to
          reasonably accurate pipeline data in the event of emergency or
          potentially hazardous situations. The public also has access to contact
          information about pipeline operators within their specified geographic
          areas.



Executi ve Summar y                                                               v
                 It is important to note that even though some rules have been issued in
                 their final form, they will not be fully implemented for many years. For
                 example, as part of the rule requiring IMPs for operators of more than
                 500 miles of hazardous liquid pipelines, operators have 7 years11 from
                 the effective date of the final rule to complete baseline inspections. The
                 baseline assessment period for these hazardous liquid pipeline operators
                 will not end until March 2008.

                 As of December 31, 2002 (the most current available data12), 25 percent
                 of pipeline miles for this segment of the industry have been baselined,
                 using mostly smart pigs but also alternative methods approved by OPS,
                 such as pressure testing. According to OPS, 50 percent of hazardous
                 liquid pipeline miles13 in high-consequence areas will be baselined by
                 September 2004, as required by the IMP rule.

            • Much has been accomplished in the past 3 years, but OPS needs to
              continue in its efforts to implement mandates from legislation enacted
              in 1992 and 1996. Two reasons for OPS’s progress have been its high
              level of management emphasis and the priority attention given to
              rulemaking by the highest levels of the Department of Transportation’s
              (DOT) management, namely the Secretary, Deputy Secretary, Chief of
              Staff, and General Counsel. The Secretary has taken an active interest
              in improving DOT’s rulemaking process and has emphasized to senior
              DOT managers the need to ensure that rules are completed in a timely
              manner or that problems and issues causing delays are identified and
              fixed.

                 Nevertheless, six mandates from legislation enacted in 1992 and 1996
                 remain open, and all are over 8 years past due. For example, two
                 mandates, which are a decade overdue, would define “natural gas and
                 hazardous liquid gathering lines”14 so as to determine which lines can
                 and should be regulated. OPS published a Notice of Proposed
                 Rulemaking (NPRM) in the Federal Register on natural gas gathering
                 lines for comment and discussion in March 1999 and published an

11
     Prior to the issuance of the final rule, there had been considerable debate on whether the initial baseline inspection
     period of 7 years was excessive and that a 5-year timeframe might be more desirable given the importance of the
     information to be developed during baseline inspections. However, because smart pigs are the preferred method for
     conducting pipeline assessments under the rule, reasonable estimates of growth rates for the smart pig industry
     would have made a 5-year timeframe difficult to achieve. A 7-year timeframe appeared more feasible.
12
     Baseline data were provided by the American Petroleum Institute through OPS and have not been verified by OPS.
13
     According to the American Petroleum Institute, nationwide there are approximately 160,000 miles of hazardous
     liquid pipelines, of which 51,400 miles are located in high-consequence areas. As required by the final rule, 25,700
     of the 51,400 miles (50 percent) should have received baseline assessments by September 30, 2004.
14
     Gathering lines are pipelines, usually of small diameter, used in moving gas or hazardous liquid from the field to a
     central point.


Executi ve Summar y                                                                                                    vi
                 advisory bulletin in October 2002. This mandate is still under
                 discussion, with a supplemental notice expected in December 2004.
                 OPS also expects to issue a NPRM on hazardous liquid gathering lines
                 for comment in December 2004, 12 years after the mandate was
                 enacted.

            • Closing the safety gap on natural gas distribution pipelines. The
              mandates from legislation enacted in 1992, 1996, and 2002 go a long
              way in promoting safe, reliable, and environmentally sound operations
              of the Nation’s pipeline system. However, operators of natural gas
              distribution pipelines are not required to implement the integrity
              management safety mandates that govern operators of hazardous liquid
              and natural gas transmission pipelines.

                 For example, the Pipeline Safety Improvement Act of 2002 requires that
                 the operators of a gas pipeline facility15 implement IMPs. However, the
                 IMP requirement only applies to operators of natural gas transmission
                 pipelines. As part of the IMP rule, operators of natural gas transmission
                 pipelines are required to inspect the integrity of their pipelines using one
                 or more of the following inspection methods: smart pigs, pressure
                 testing, or direct assessment.16

                 According to officials of the American Gas Association, the initial
                 reason for not requiring operators of natural gas distribution pipelines to
                 have IMPs is that distribution pipelines cannot be inspected using smart
                 pigs. The smart pig technologies currently available cannot be used in
                 natural gas distribution pipelines because the majority of distribution
                 piping is too small in diameter (1 to 6 inches) and has multiple bends
                 and material types intersecting over very short distances.

                 The IMP is a risk-management tool designed to improve safety,
                 environmental protection, and reliability of pipeline operations. The
                 fact that natural gas distribution pipelines cannot be internally inspected
                 using smart pigs is not a sufficient reason for not requiring IMPs for
                 operators of natural gas distribution pipelines. Other elements of the
                 IMP can be readily applied to this segment of the industry, including but
                 not limited to (1) a process for continual integrity assessment and
                 evaluation, (2) an analytical process that integrates all available

15
     A gas pipeline facility is defined as new and existing pipeline, right-of-way, and any equipment, facility, or building
     used in the transportation of gas or in the treatment of gas during the course of transportation. Transportation of gas
     is defined as the “gathering, transmission, or distribution of gas by pipeline or the storage of gas, in or affecting
     interstate or foreign commerce [italics added].”
16
     Operators can choose another technology that demonstrates an equivalent understanding of the integrity of the
     pipeline but only after notifying OPS before the inspection begins.


Executi ve Summar y                                                                                                    vii
        information about pipeline integrity and the consequences of failure,
        and (3) repair criteria to address issues identified by the integrity
        assessment and data analysis.

        Our concern is that the Department’s strategic safety goal is to reduce
        the number of transportation-related fatalities and injuries, but natural
        gas distribution pipelines are not achieving this goal. In the 10-year
        period from 1994 through 2003, OPS’s data show accidents in natural
        gas distribution pipelines have caused more than 4 times the number of
        fatalities (174 fatilities) and more than 3.5 times the number of
        injuries (662 injuries) when compared to a combined total of
        43 fatalities and 178 injuries associated with hazardous liquid and gas
        transmission pipeline accidents.

        In fact, in the past 3 years, the number of fatalities and injuries from
        accidents involving natural gas distribution pipelines has increased
        while the number of fatalities and injuries involving hazardous liquid
        and natural gas transmission pipelines has held steady or declined.
        OPS’s data show that fatalities and injuries from accidents involving
        natural gas distribution pipelines increased from 5 fatalities and
        46 injuries in 2001 to 11 fatalities and 58 injuries in 2003. For the same
        period, fatalities and injuries from accidents involving hazardous liquid
        and natural gas transmission pipelines decreased from 2 fatalities and
        15 injuries in 2001 to 1 fatality and 13 injuries in 2003.

        Although OPS has moved forward to enhance the safety of natural gas
        distribution pipelines, OPS needs to ensure that the pace of its efforts
        moves quickly enough given that there has been no steady decreasing
        trend in the number of accidents, fatalities, and injuries involving
        natural gas distribution pipelines. OPS should require operators of
        natural gas distribution pipelines to implement some form of pipeline
        integrity management or enhanced safety program with the same or
        similar integrity management elements as the hazardous liquid and
        natural gas transmission pipelines. This would be consistent with
        OPS’s risk-based approach to overseeing pipeline safety by using IMPs
        to reduce the risk of accidents that may cause injuries or fatalities to
        people living or working near natural gas distribution pipelines, as well
        as to reduce property damage.

     • OPS increased the funding and scope for R&D projects to improve the
       technologies used to inspect pipeline systems; however, project
       oversight improvements need to be completed. As part of OPS’s IMP
       rule, operators of hazardous liquid and natural gas transmission
       pipelines are required to inspect the integrity of their pipelines using a

Executi ve Summar y                                                           viii
        variety of methods such as smart pigs and direct assessment. To date,
        OPS’s integrity management assessments indicate that operators of
        hazardous liquids pipelines used smart pigs about 70 percent of the time
        to conduct their baseline integrity inspections and strongly favored the
        use of smart pigs over alternative inspection methods available under
        the IMP, such as direct assessment. Although there have been
        significant advances in smart pig technology, the current technology
        still cannot identify all pipeline integrity threats. Smart pigs currently in
        use can successfully detect and measure corrosion, dents, and wrinkles
        but are less reliable in detecting other types of mechanical damage. As
        a result, certain integrity threats go undetected and pipeline accidents
        may occur.

        OPS’s R&D funding more than tripled, from $2.7 million in fiscal year
        (FY) 2001 to $8.7 million in FY 2003. Nearly $4 million of the
        $8.7 million is for projects to improve the technologies used to inspect
        the integrity of pipeline systems. R&D projects currently funded have
        increased in size and scope, from a single project before 2001 to 22
        active projects in 2004. These projects explore a variety of ways to
        improve smart pig technologies, develop alternative inspection and
        detection technologies for pipelines that cannot accommodate smart
        pigs, and improve pipeline material performance.

        With the increase in size and scope of R&D projects, OPS has
        developed and implemented an internet-based system to electronically
        manage pre-award activities (e.g., issuance of announcements, receipt
        and review of proposals). OPS is developing, as part of the same
        system, a component to monitor post-award activities, such as managing
        project costs, schedules, and performance.

        OPS estimates that 10 to 15 additional R&D projects are planned to
        begin in late 2004. OPS needs to complete its internet-based system
        component for monitoring post-award activities of R&D projects to
        ensure that viable, reliable, cost-effective technologies become readily
        available to meet the requirements of the IMP and, at the same time, to
        ensure efficient and effective management of its R&D funds.

     • OPS designed and implemented a program to train safety inspectors
       on the use of smart pig technologies and the interpretation of the
       result of the inspections. OPS must now be forward-looking to ensure
       its inspector workforce knowledge base is commensurate with
       increased usage of and advances in smart pig technology. All OPS
       inspectors are required to take an awareness course on internal
       inspection technologies as part of their 9-course basic training. At the

Executi ve Summar y                                                               ix
        time we issued our March 2000 report, OPS did not train its inspectors
        on the use of smart pig technologies and the interpretation of the result
        of the inspections. Since that time, OPS IMP inspectors are required to
        take a more comprehensive course on internal inspection technologies
        as part of their advanced training. The course is designed to provide
        inspectors with the knowledge and skills required to conduct meaningful
        safety evaluations of operator pigging program inspections and of
        pigging data for hazardous liquid and natural gas transmission pipelines.
        As of May 31, 2004, 110 Federal and state inspectors have received the
        advanced training, with an additional 58 Federal and state inspectors
        scheduled to take the advanced training in 2004.

        OPS will be monitoring the implementation of more than
        1,100 hazardous liquid and natural gas transmission pipeline operators.
        This is in addition to OPS’s ongoing oversight activities, such as
        inspecting new pipeline construction and investigating pipeline
        accidents.   IMP inspectors are actively overseeing the IMP
        implementation through their assessments of hazardous liquid pipeline
        operators’ IMP plans—the first segment of the industry required to
        implement the IMP.

        As of April 30, 2004, results from OPS’s IMP assessments disclosed,
        among other things, that (1) the 63 largest operators of hazardous liquid
        pipelines have undergone IMP assessments, which leaves 157 more
        operators of hazardous liquid pipelines and 884 operators of natural gas
        transmission pipelines who will need initial IMP assessments; (2) smart
        pigs were used by the pipeline operators about 70 percent of the time to
        conduct their baseline integrity inspections of hazardous liquid
        pipelines; and (3) more than 20,000 integrity threats were identified and
        remediated as part of the operators’ IMPs. One of the most serious
        threats discovered was corrosion where greater than 80 percent of the
        pipeline wall thickness had been lost. It has since been repaired. A
        lesser threat discovered was minor corrosion along a longitudinal seam.

        The challenges inspectors face during a review of an operator’s baseline
        integrity inspection results are to determine whether OPS’s repair
        criteria were properly used to characterize the type of repair required for
        each threat identified and whether the operator’s threat remediation
        plans are adequate to repair or mitigate the threat. More importantly,
        however, is that OPS will need to follow up to ensure that the operator
        has properly executed remediation actions within the defined time limit.

        OPS must ensure its inspector workforce knowledge base is
        commensurate with increased usage and technological advances of

Executi ve Summar y                                                              x
        smart pigs. As OPS has noted, hazardous liquid pipeline operators
        strongly favor the use of smart pigs to conduct baseline integrity
        inspections. Also, increased funding in smart pig R&D will improve
        the technology to allow more pipeline mileage to be inspected using
        smart pigs instead of alternative inspection methods. Current training
        course curricula may have to be revised to account for the increased
        usage of and advances in the technologies used to inspect the integrity
        of pipeline systems.

     • OPS corrected shortcomings in pipeline data collection. However,
       “best practices” are needed in its internal review process to ensure
       that the accident data submitted by pipeline operators are accurate
       and reliable. In 1997, NTSB noted significant problems with pipeline
       accident data collection and analysis and recommended that OPS revise
       its reporting forms and instructions to eliminate overlapping and
       confusing categories and to include new, more descriptive causal
       categories.

        In January 2002, OPS issued new reporting forms and instructions for
        accidents involving natural gas transmission and hazardous liquid
        pipelines, increasing the number of causal categories from 4 to 25 for
        natural gas transmission pipelines and from 7 to 25 for hazardous liquid
        pipelines. In March 2004, OPS issued a new reporting form and
        instructions for accidents involving natural gas distribution pipelines,
        increasing the number of causal categories from 5 to 25. The new
        reporting forms and instructions also require operators to indicate if the
        data being provided are initial, supplemental, or final. With the added
        causal categories, OPS will have access to far more detailed information
        about the causes of pipeline accidents.

        To assess root causes of accidents, identify appropriate corrective
        actions, and ensure that the operator provides the most current, accurate,
        and complete accident information as it becomes available, OPS has
        begun to improve its process for internally reviewing accident
        information. It is developing written guidelines and conducting the first
        of several quarterly sessions of formal training for the personnel
        responsible for the internal review process. Training will be ongoing
        until OPS has established best practices for the internal review of
        operator accident information.

        As more accident data are collected, data analysis becomes an integral
        component in assessing and evaluating the performance of the IMP,
        identifying safety trends, and reporting program results (e.g., in the
        annual performance report to Congress required under the Government

Executi ve Summar y                                                            xi
                 Performance and Results Act). However, the quality of OPS’s data
                 analysis and reporting is only as good as the timeliness, completeness,
                 and accuracy of data submitted by the operators.17 As we have seen in
                 other DOT programs, the quality and timeliness of the accident data is
                 key to an effective program. We recently reported on the Federal Motor
                 Carriers Safety Administration’s (FMCSA) Motor Carrier Safety Status
                 Measurement System (SafeStat)18 and found that significant problems
                 existed with the data motor carriers and the states provide to FMCSA,
                 such as errors and omissions in the data records. These data problems
                 limited SafeStat’s effectiveness and introduced bias into the ranking
                 process for targeting high-risk motor carriers.

                 To avoid future problems and to ensure that operators’ data can be
                 relied on to target its oversight resources, OPS needs to finalize and
                 implement the best practices for its internal review process, including
                 procedures to review data quality. As part of its data quality review,
                 OPS should include reviews of source documentation to make sure
                 accident data submitted to OPS by the pipeline operators are complete
                 and accurate. OPS should also take enforcement action against those
                 operators who are not complying with the reporting requirements.

            • OPS made progress in closing out long overdue NTSB safety
              recommendations, but improvements are still needed in the internal
              processing of open recommendations. OPS has closed out 21 of
              23 NTSB safety recommendations we identified in our March 2000
              report. One of the remaining two open NTSB recommendations is
              considered by OPS as being in the close-out phase (i.e., acceptable
              action taken by OPS and close-out letter at NTSB for review).

                 Since our March 2000 report, OPS has shown considerable progress in
                 fully implementing NTSB recommendations. OPS has received 13 new
                 NTSB recommendations, of which 8 have been closed, and 7 of those
                 8 recommendations were closed within 2 years of issuance. OPS
                 expects the remaining five open recommendations to be closed within
                 4 years of issuance. This is compared to an average issuance-to-closure
                 time of 6.4 years, with a range of 3.3 years to 17.1 years, for the 21 of
                 23 recommendations identified in our March 2000 report.



17
     At the time of our review, the requirement that operators use the new accident reporting forms and instructions was
     in the early stages of implementation, and it was too soon to tell whether the new accident reporting forms and
     instructions would improve the comprehensiveness and quality of data.
18
     OIG Report Number MH-2004-034, “Improvements Needed in the Motor Carrier Safety Status Measurement
     System,” February 13, 2004.


Executi ve Summar y                                                                                                xii
                OPS needs to continue in its efforts to close out the remaining five
                NTSB recommendations where acceptable actions have not been
                completed, especially the recommendations addressing issues that are
                fundamental to the integrity of the pipeline system. For example, one
                recommendation would require that new or replaced pipelines be
                designed and constructed with features to mitigate internal corrosion.
                The significance of this recommendation cannot be overstated, as
                corrosion is the second leading cause of pipeline accidents.

                OPS also needs to establish a formal internal policy and procedures for
                responding to NTSB recommendations so that key safety
                recommendations are addressed completely and in a timely manner. Of
                the 13 new recommendations OPS received since our March 2000
                report, only 3 were processed in accordance with DOT policy. This
                policy requires Operating Administrations to reply to NTSB
                recommendations within 90 days of receipt. For recommendations with
                which the Operating Administration concurs, the response must include
                an implementation timetable. The policy also requires that all actions
                proposed in response to NTSB recommendations will be pursued
                expeditiously.


Pipeline Security Roles and Responsibilities Need To Be
Solidified
To its credit, OPS has moved forward on several fronts to help reduce the risk of
terrorist activity against the Nation’s pipeline infrastructure. For example, OPS
has conducted pipeline vulnerability assessments and identified critical pipeline
systems; it has also developed security standards and guidance for security
programs.

However, unlike its pipeline safety program, OPS’s security guidance is not
mandatory. Industry’s participation in a security program is strictly voluntary and
cannot be enforced unless a regulation is issued to require industry compliance. In
fact, it is still unclear which agency or agencies will have responsibility for
pipeline security rulemaking, oversight, and enforcement.

Certain steps have been taken to establish what agency or agencies would be
responsible for ensuring the security of the Nation’s critical infrastructure,
including pipelines. For example, in December 2003, Homeland Security
Presidential Directive/HSPD-719 (HSPD-7):


19
     Homeland Security Presidential Directive/HSPD-7, “Critical Infrastructure Identification, Prioritization, and
     Protection,” issued December 2003.


Executi ve Summar y                                                                                         xiii
        • Assigned the Department of Homeland Security (DHS) the
          responsibility for coordinating the overall national effort to enhance the
          protection of the Nation’s critical infrastructure and key resources.

        • Assigned the Department of Energy (DOE) the responsibility for
          ensuring the security of the Nation’s energy, including the production,
          refining, storage, and distribution of oil and gas.

        • Directed DOT and DHS to collaborate (1) on all matters relating to
          transportation security and transportation infrastructure protection, and
          (2) in regulating the transportation of hazardous materials by all modes,
          including pipelines.

  Although HSPD-7 directs DOT and DHS to collaborate in regulating the
  transportation of hazardous materials by all modes, including pipelines, it is not
  clear from an operational perspective what “to collaborate” encompasses, and it is
  also not clear what OPS’s relationship will be with DOE. To be more useful in the
  operating environment, the delineation of roles and responsibilities between DOT
  and DHS needs to spelled out by executing a Memorandum of Understanding
  (MOU) or a Memorandum of Agreement. OPS also needs to seek clarification on
  the delineation of roles and responsibilities between itself and DOE.


RECOMMENDATIONS
  The progress described above was the direct result of a high level of management
  attention and priority by OPS in the past few years to implementing the
  recommendations and to helping reduce the risk of terrorist activity against the
  Nation’s pipeline infrastructure. OPS needs to maintain this level of attention in
  the future because further actions are needed. Specifically, RSPA needs to ensure
  that OPS:

  1. Completes its actions on the remaining six mandates from legislation enacted
     in 1992 and 1996.

  2. Requires operators of natural gas distribution pipelines to implement some
     form of pipeline integrity management or enhanced safety program with the
     same or similar integrity management elements as the hazardous liquid and
     natural gas transmission pipelines.

  3. Completes its internet-based system for monitoring its R&D project costs,
     schedules, and performance.




  Executi ve Summar y                                                           xiv
  4. Finalizes and implements “best practices” for its internal review process,
     including procedures to review data quality and to ensure that the operators are
     providing current, complete, and accurate accident information. OPS should
     also take enforcement action against those operators who are not complying
     with the reporting requirements.

  5. Completes its actions to close out the remaining five NTSB recommendations
     identified in this report.

  6. Implements a formal internal policy and procedures for responding to NTSB
     recommendations so that key safety recommendations are addressed
     completely and in a timely manner in accordance with DOT policy.

  7. Seeks clarification on the delineation of roles and responsibilities between
     itself and DOE.

MANAGEMENT COMMENTS AND OFFICE OF INSPECTOR
GENERAL RESPONSE
  A draft of this report was provided to RSPA on May 4, 2004. In its comments,
  RSPA agreed in general with our recommendations and stated that work is
  underway to address all outstanding issues identified in the draft report. For six of
  seven recommendations, we consider RSPA comments to be positive and
  constructive, and RSPA actions taken and planned for the recommendations are
  reasonable. Specifically, RSPA agreed to ensure that OPS:

  •   Completes its actions on the remaining six mandates from legislation enacted
      in 1992 and 1996 by December 2004.

  •   Completes its internet-based system for monitoring its research and
      development projects’ costs, schedules, and performance by October 2004.

  •   Finalizes and implements “best practices” for its internal review process,
      including procedures to review data quality and to ensure that the operators
      are providing current, complete, and accurate accident information by March
      2005.

  •   Completes its actions to close out the remaining five NTSB recommendations
      identified in this report by December 2005.

  •   Uses both the Department of Transportation (DOT) and RSPA’s policies and
      procedures for addressing NTSB recommendations. According to OPS, it is
      currently doing so.


  Executi ve Summar y                                                               xv
•   Clarifies its security roles and responsibilities with DOE by November 2004.

However, for one recommendation, RSPA comments were not fully responsive,
and we are requesting some additional information.

We recommended that RSPA ensure that OPS require operators of natural gas
distribution pipelines to implement some form of pipeline integrity management or
enhanced safety program with the same or similar integrity management elements
as the hazardous liquid and natural gas transmission pipelines.

In its response, RSPA stated that industry, state, and Federal regulators are now
working to develop natural gas distribution IMPs, and that a public workshop to
discuss IMP concepts is planned for December 2004. Other than indicating that it
is working with the states and industry to develop an IMP for natural gas
distribution pipelines and plans to hold a public workshop to discuss IMP concepts
in December 2004, RSPA did not indicate when it expected to require an IMP for
natural gas distribution pipelines. We requested that RSPA clarify this issue.

We are withdrawing our recommendation that RSPA ensure that OPS petition the
DOT, through RSPA, to execute a Memorandum of Agreement or MOU with
DHS, formalizing the security roles and responsibilities of OPS and DHS’s
Transportation Security Administration. Since we made this recommendation,
DOT’s Deputy Secretary has made it clear that an MOU is needed, and we
understand that the Deputy Secretary has communicated this to DHS. Hopefully
an MOU between DOT and DHS can be consummated by September 1, 2004.
DOT should keep the appropriate Congressional committees apprised of its
progress on the MOU with DHS.

In commenting on the findings in the draft report, there was one issue that RSPA
believed needed to be clarified. In the draft report, we stated that natural gas
distribution pipelines were excepted from integrity management safety mandates
that govern hazardous liquid and natural gas transmission pipelines. According to
RSPA:

     The statement was misleading in that it implies that OPS have taken
     action to “except” gas distribution pipelines from the integrity
     management programs. The fact is, Federal law only mandated that
     transmission pipelines be assessed, so the Office of Pipeline Safety
     (OPS) only addressed transmission pipelines first.

We never intended to imply that OPS had excepted natural gas distribution from
the IMPs and are aware that the Pipeline Safety Improvement Act of 2002
mandated IMPs for operators of only natural gas transmission pipelines. Section



Executi ve Summar y                                                           xvi
14 of the 2002 Act required each operator of a gas pipeline facility20 subject to
49 United States Code Section 60109 to adopt and implement an IMP. However,
natural gas distribution pipelines are excepted from Section 60109 requirements.
We have revised our report to clarify that operators of natural gas distribution
pipelines are not required to implement IMPs.




20
     A gas pipeline facility is defined as new and existing pipeline, right-of-way, and any equipment, facility, or building
     used in the transportation of gas or in the treatment of gas during the course of transportation. Transportation of gas
     is defined as the “gathering, transmission, or distribution of gas by pipeline or the storage of gas, in or affecting
     interstate or foreign commerce [italics added].”




Executi ve Summar y                                                                                                  xvii
                         TABLE OF CONTENTS

TRANSMITTAL MEMORANDUM
EXECUTIVE SUMMARY .........................................................................i
INTRODUCTION.....................................................................................2
    Background ........................................................................................2
    Objectives, Scope, and Methodology.................................................4
    Prior Audit Coverage ..........................................................................6
FINDINGS AND RECOMMENDATIONS................................................8
    Mandates Implemented from 1992 and 1996 Legislation ..................8
    R&D Funding and Pipeline Inspection Technologies .......................17
    Training Needs for Smart Pig Operations ........................................19
    Pipeline Accident Data Collection and Analysis...............................20
    Closing-out Long-overdue NTSB Safety
    Recommendations ...........................................................................22
    Pipeline Security Roles and Responsibilities ...................................23
RECOMMENDATIONS.........................................................................25
MANAGEMENT COMMENTS AND OFFICE OF
INSPECTOR GENERAL RESPONSE..................................................26
EXHIBIT A. GAS PIPELINE SYSTEM DIAGRAM ...............................29
EXHIBIT B. GLOSSARY OF PIPELINE TERMS .................................30
EXHIBIT C. NTSB RECOMMENDATIONS THAT REMAIN
OPEN SINCE OUR MARCH 2000 REPORT........................................32
EXHIBIT D. MAJOR CONTRIBUTORS TO THIS
REPORT ...............................................................................................34
APPENDIX. MANAGEMENT COMMENTS.........................................35
INTRODUCTION

                               Background
The Office of Pipeline Safety (OPS) is responsible for overseeing the safety of the
Nation’s pipeline system, an elaborate network of more than 2 million miles of
pipe moving millions of gallons of hazardous liquids and more than 55 billion
cubic feet of natural gas daily. Exhibit A contains a diagram of the natural gas
pipeline system. Exhibit B contains a glossary of terms used in the pipeline
industry.

The pipeline system is composed of predominantly three segments—natural gas
transmission pipelines, natural gas distribution pipelines, and hazardous liquid
pipelines—run by about 2,200 natural gas pipeline operators and 200 operators of
hazardous liquid pipelines (as seen in Table 1). There are approximately
90 Federal and 400 state inspectors responsible for overseeing the operators’
compliance with pipeline safety regulations.


           Table 1. Pipeline System Facts and Description

     System Segment           Facts                  Segment Description
 Natural Gas                 326,595      Lines used to gather and transmit natural gas
 Transmission Pipelines       Miles       from wellhead to distribution systems
 Natural Gas                1.8 Million   Mostly local distribution lines transporting
 Distribution Pipelines        Miles      natural gas from transmission lines to
                                          residential, commercial, and industrial
                                          customers
 Hazardous Liquid            160,000      Lines primarily transporting products such as
 Transmission Pipelines       Miles       crude oil, diesel fuel, gasoline, and jet fuel

    System Operators          Facts                 Operators Description
 Natural Gas Transmission      880        Large, medium, and small operators of
 Operators                                natural gas transmission pipelines
 Natural Gas Distribution     1,300       Large, medium, and small operators of
 Operators                                natural gas distribution pipelines
 Hazardous Liquid              220        Approximately 70      large   operators   and
 Operators                                130 small operators



Introduction                                                                          2
Although moving commodities such as crude oil, diesel fuel, gasoline, and natural
gas through pipelines is safer than moving the same commodities on other modes
of transportation (e.g., barges, rail, trucks), pipeline incidents can have
catastrophic consequences, such as the deadly pipeline rupture, explosion, and fire
in the Bellingham, Washington, area in June 1999.

On June 10, 1999, a 16-inch-diameter pipe near Bellingham ruptured, discharging
237,000 gallons of gasoline into a nearby creek. The fuel ignited, killing
three people and injuring eight others, with property damage estimated at
$45 million in 2002. In the largest criminal and civil settlement ever obtained in a
pipeline rupture case, two pipeline companies agreed to pay $113 million to
resolve criminal and civil penalties arising from the accident and to ensure the
safety of their pipelines. The charges, the first ever brought under the Hazardous
Liquid Pipeline Safety Act of 1979, as amended, included three criminal counts
for violating this act, which sets minimum safety standards for training employees
who operate interstate pipelines that carry hazardous liquids.

As a result of the accident, Senator Patty L. Murray requested that the Office of
Inspector General (OIG) review OPS’s role in promoting and overseeing pipeline
safety. In March 2000, we reported that weaknesses existed in OPS’s pipeline
safety program and made recommendations designed to correct these weaknesses.
These recommendations were later mandated in the Pipeline Safety Improvement
Act of 2002 (2002 Act), which also required OIG to assess OPS’s progress to:

       • Fulfill the pipeline safety mandates from legislation enacted in 1992 and
         1996.

       • Expand the focus of OPS research and development (R&D) to improve the
         capabilities of technologies used to inspect the integrity of pipeline
         systems.

       • Design and implement a program to train safety inspectors on the use of
         internal inspection devices (referred to as “smart pigs”21 and the
         interpretation of the results.

       • Correct shortcomings in collection and analysis of pipeline accident data.

       • Establish timetables to implement open National Transportation Safety
         Board (NTSB) pipeline safety recommendations.



21
     A “smart pig” is an instrumented internal inspection device that traverses a pipeline to detect potentially dangerous
     defects, such as corrosion.


Introduction                                                                                                            3
Our recommendations were issued while OPS was finalizing its Pipeline Risk
Management Demonstration Program,22 mandated by the Accountable Pipeline
Safety and Partnership Act of 1996. According to OPS, this program was
designed to “test whether allowing operators the flexibility to allocate safety
resources through risk management is an effective way to improve safety,
environmental protection, and reliability of pipeline operations.” OPS concluded
from the results of the Demonstration Program that there was potential for
developing effective safety management processes that would protect the public
and environment and provide more useful information about the integrity of the
Nation’s pipeline systems.

Consequently, this risk-based approach to overseeing pipeline safety evolved into
what OPS has termed as “integrity management” and requires pipeline operators
to develop integrity management programs (IMPs)23 to “assess, evaluate, repair
and validate through comprehensive analysis the integrity of pipeline segments
that, in the event of a leak or failure, could affect populated areas, areas unusually
sensitive to environmental damage and commercially navigable waterways.”


                   Objectives, Scope, and Methodology
Congress passed the Pipeline Safety Improvement Act of 2002, which mandates
the Secretary of Transportation to implement the safety improvement
recommendations made in the OIG’s Report Number RT-2000-069, “Pipeline
Safety Program,” March 13, 2000. In addition, the 2002 Act requires the
Inspector General to report periodically to Congress on the Secretary’s progress in
implementing the recommendations and to identify options for the Secretary to
consider in accelerating implementation of the recommendations.

The audit objective was to assess OPS’s progress in implementing the pipeline
safety improvement recommendations included in our March 2000 report.
Specifically, we assessed whether OPS has:

       • Fulfilled the pipeline safety mandates from legislation enacted in 1992 and
         1996,

22
     OPS’s Pipeline Risk Management Demonstration Program comprised several projects nationwide that evaluated
     different aspects of pipeline systems’ operations for ways to improve safety management and performance.
23
     The Integrity Management Program is a documented set of policies, processes, and procedures that includes, at a
     minimum, the following elements: (1) a process for determining which pipeline segments could affect a
     high-consequence area, (2) a baseline assessment plan, (3) a process for continual integrity assessment and
     evaluation, (4) an analytical process that integrates all available information about pipeline integrity and the
     consequences of a failure, (5) repair criteria to address issues identified by the integrity assessment and data analysis,
     (6) features identified through internal inspection, (7) a process to identify and evaluate preventive and mitigative
     measures to protect high-consequence areas, (8) methods to measure the program’s effectiveness, and (9) a process
     for review of integrity assessment results and data analysis by a qualified individual.


Introduction                                                                                                                4
   • Expanded the focus of OPS research and development programs to improve
     the capabilities of technologies used to inspect the integrity of the pipeline
     system,

   • Designed and implemented a program to train safety inspectors on the use
     of internal inspection devices and the interpretation of inspection results,

   • Improved the collection and analysis of pipeline accident data,

   • Established an enforcement mechanism to ensure operators’ accident
     reports are complete and accurate, and

   • Established timetables to implement open NTSB pipeline safety
     recommendations.

In addition, with the need to protect the Nation’s infrastructure of pipelines, we
reviewed OPS’s involvement in the security of the pipeline system.

The audit was conducted from May 2003 to January 2004 and covered OPS
actions in implementing our recommendations for the period March 2000 through
April 2004. We conducted our review in accordance with Government Auditing
Standards prescribed by the Comptroller General of the United States.

To determine OPS’s progress in responding to congressional mandates, we asked
OPS officials to identify actions OPS has taken to implement these requirements.
We then gathered and analyzed available documentation, OPS reports, and
published rules in the DOT Docket Management System. To determine OPS’s
progress in responding to recommendations from the NTSB, we asked OPS to
provide a progress report. We then interviewed NTSB’s Director of the Office of
Railroad, Pipeline, and Hazardous Materials Investigations about OPS’s progress
in responding to Board recommendations. In addition, we obtained from NTSB a
detailed status report for each open pipeline recommendation.

During the audit we also met with state agencies, pipeline operators, congressional
staff members, and industry representatives to better understand pipeline
operations and safety issues. We performed work in OPS Headquarters and the
OPS Eastern Region in Washington, D.C. We also visited or contacted the
OPS Southern Region in Atlanta, Georgia; Southwestern Region in Houston,
Texas; and Western Region in Denver, Colorado. We visited pipeline research
contractors in Columbus, Ohio, and San Antonio, Texas. We observed a Pacific
Gas and Electric pipeline excavation near Hollister, California. We also met with



Introduction                                                                     5
state pipeline regulatory officials and inspectors from Olympia, Washington, and
from Los Angeles, Sacramento, and San Francisco, California.

At each location, we conducted interviews with key program officials and, where
possible, observed operations or pipeline repair demonstrations. We also analyzed
performance goals, budget documents, accident report forms, accident
investigation reports, internal memoranda, and other documents we considered
germane to our audit objectives.


                        Prior Audit Coverage
On February 13, 2002, we testified before the House Committee on Transportation
and Infrastructure, Subcommittee on Highways and Transit on the reauthorization
of the Pipeline Safety Program. While we noted that the Research and Special
Programs Administration (RSPA) has made progress in responding to
recommendations made by OIG in a 2000 report, we identified six issues where
additional work remains: (1) fulfilling long-overdue congressional mandates on
integrity management of natural gas transmission pipelines and mapping of the
pipeline system, (2) expanding pipeline safety R&D to improve the capabilities of
internal inspection devices, (3) completing improvements in pipeline accident data
collection and analysis, (4) training pipeline inspectors to use internal inspection
devices and interpret test results, (5) completing baseline inspections by 2008 for
all hazardous liquid and natural gas transmission pipelines, and (6) developing
action plans for security roles among agencies.

On March 13, 2000, we issued Report Number RT-2000-069, “Pipeline Safety
Program.” The report included six recommendations. First on the list was a
recommendation to finalize the actions to implement 1992 and 1996 congressional
mandates. The next two recommendations reflected OIG’s concern about smart
pigs. We recommended that OPS expand its R&D program to develop more
sophisticated internal inspection devices and explore ways to internally inspect
pipelines that cannot accept smart pigs. We also recommended that OPS train its
safety inspectors to read and interpret internal pipeline inspection results.

Accident reporting was also an area of concern. We recommended OPS revise its
accident report forms to expand causal categories and to clarify instructions for
completing the form. This recommendation was aimed at sharpening OPS’s trend
analysis. To ensure the accident forms were updated as additional facts surfaced,
we recommended a regulatory change to give OPS enforcement authority to
compel operators to revise accident reports.




Introduction                                                                      6
Finally, we noted that OPS did not provide NTSB with required enactment
timetables for recommendations with which OPS agreed, and we recommended
OPS establish these timetables and provide them to NTSB.




Introduction                                                          7
FINDINGS AND RECOMMENDATIONS
Since our March 2000 report, OPS has shown considerable progress in
implementing congressional mandates and NTSB safety recommendations, but
more needs to be done. For example, of the 31 mandates from legislation enacted
in 1992 and 1996, 25 mandates have been implemented, 17 of which were
implemented since our March 2000 report. Six mandates from legislation enacted
in 1992 and 1996 remain open, and all are over 8 years past due.

Also, OPS has increased its research and development (R&D) funding to improve
pipeline inspection methods, trained safety inspectors on the use of smart pig
technologies, and corrected shortcomings in pipeline data collection and analysis,
but these actions need ongoing attention and follow through to ensure continued
success of the IMP and OPS’s safety oversight.

The IMP is now under way for operators of hazardous liquid and natural gas
transmission pipeline systems, but the IMP rules will not be fully implemented for
up to 8 years. This is a key issue as the IMP is the backbone of OPS’s risk-based
approach to overseeing pipeline safety.

Because IMP is in the early stages of implementation, there is clearly not enough
evidence available to evaluate its effectiveness in strengthening pipeline safety.
This is the first time that baseline integrity inspections are being established
systemwide—starting with hazardous liquid pipelines—so there are no
comparable benchmarks. While OPS has made progress in implementing the
recommendations, the work is not done. The current situation is far from an
“end state” for ensuring the safety of the Nation’s pipeline system.


                  Mandates Implemented from
                   1992 and 1996 Legislation
Historically, OPS has been slow to implement critical pipeline safety initiatives
and to improve its oversight of the pipeline industry. The lack of responsiveness
has prompted Congress to repeatedly mandate basic elements of a pipeline safety
program, such as requirements to inspect pipelines periodically and to use smart
pigs to inspect pipelines. In recent years, however, OPS has initiated several
actions to improve pipeline safety, such as requiring IMPs for pipeline operators,
which they use to assess their pipelines for risk of a leak or failure, to take action
to mitigate the risks, and to develop program performance measures.



Findings and Recommendations                                                        8
The mandates from legislation enacted in 1992, 1996, and 2002 go a long way in
promoting safe, reliable, and environmentally sound operations of the Nation’s
pipeline system. However, natural gas distribution pipelines are not required to
implement the integrity management safety mandates that govern hazardous liquid
and natural gas transmission pipelines. For the 10-year period from 1994 through
2003, accidents in natural gas distribution pipelines have resulted in more fatalities
and injuries than hazardous liquid and natural gas transmission pipelines
combined. Although OPS has moved forward with initiatives to enhance the
safety of natural gas distribution pipelines, OPS needs to ensure that the pace of its
efforts moves quickly enough given that there has been no steady decreasing trend
in the number of accidents, fatalities, and injuries involving natural gas
distribution pipelines. OPS needs to encourage and assist operators of natural gas
distribution pipelines to develop IMPs that would protect the public and
environment and provide more useful information about the integrity of the
Nation’s pipeline systems.


FULFILLING OUTSTANDING MANDATES
OPS has aggressively moved forward in the past 3 years in implementing many of
the mandates from legislation enacted in 1992 and 1996. Of the 31 mandates from
legislation enacted in 1992 and 1996, 25 have been implemented, 17 of which
were implemented since our March 2000 report. OPS has also made considerable
progress in meeting the 23 mandates enacted in the 2002 Act. The most
noteworthy of those mandates:

       • Required IMPs for operators of hazardous liquid and natural gas
         transmission pipelines, and

       • Defined environmentally sensitive and high-density population areas
         and established inventories of pipelines in these areas.

Also in the past year, OPS completed the development of its national pipeline
mapping system (NPMS), an initiative the pipeline industry was reluctant to
support, so Congress mandated it in the Act of 2002. This is also a noteworthy
accomplishment because in order to provide effective oversight of the Nation’s
pipeline system, OPS must first know where the pipelines are located, the size and
material type of the pipe, and the types of products being delivered.

NPMS is fully operational and has mapped 100 percent of the hazardous liquid
(approximately 160,000 miles of pipeline) and natural gas transmission (more than
326,000 miles) pipeline systems operating in the United States. Congress
exempted natural gas distribution pipelines from the mapping mandate, so



Findings and Recommendations                                                        9
currently OPS does not have mapping data on the approximately 1.8 million miles
of this type of pipeline.

As a result, Government agencies and industry have access to reasonably accurate
pipeline data in the event of emergency or potentially hazardous situations. The
public also has access to contact information about pipeline operators within their
specified geographic areas.

Table 2 identifies a selection of actions taken by OPS to implement mandates
since our March 2000 report.


    Table 2. Selection of OPS Actions To Implement Mandates
                  Since Our March 2000 Report

 Issuance        Final Rules Issued by RSPA/OPS to Implement Mandates
    Date
9/8/2000   Final rule requiring that a report of abandonment be submitted to
           the Secretary of Transportation by the last operator of an
           abandoned natural gas or hazardous liquid pipeline facility that is
           located offshore or crosses under, over, or through a commercially
           navigable waterway
12/1/2000  Final rule requiring operators of 500 miles or more of hazardous
           liquid pipelines to develop integrity management programs
12/21/2000 Final rule defining areas unusually sensitive to environmental
           damage
1/8/2002   Final rule relating to the reporting of accidents involving
           hazardous liquid pipelines
1/14/2002  Final rule on repair provisions for hazardous liquid pipelines
           pertaining to the integrity management program
1/16/2002  Final rule extending integrity management programs to operators
           of less than 500 miles of hazardous liquid pipelines
8/6/2002   Final rule defining areas of high consequence where the potential
           consequences of a gas pipeline accident may be significant or may
           do considerable harm to people and their property
12/15/2003 Final rule requiring operators to develop integrity management
           programs for natural gas transmission pipelines


It is important to note that even though some rules have been issued in their final
form, they will not be fully implemented for many years. For example, as part of
the rules requiring integrity management programs for operators:



Findings and Recommendations                                                    10
      • The operators of more than 500 miles of hazardous liquid pipelines have
        7 years from the effective date of the final rule to complete baseline
        inspections to determine the existing condition of their pipelines. The
        baseline inspections period for these hazardous liquid pipeline operators
        will not end until March 2008.

          Prior to the issuance of the final rule, there had been considerable debate
          on whether the initial baseline inspection period of 7 years was
          excessive and that a 5-year timeframe might be more desirable given the
          importance of the information to be developed during baseline
          inspections. However, because smart pigs are the preferred method for
          conducting pipeline assessments under the rule, reasonable estimates of
          growth rates for the smart pig industry would have made a 5-year
          timeframe difficult to achieve. A 7-year timeframe appeared more
          feasible.

      • The operators of less than 500 miles of hazardous liquid pipelines have
        7 years from the effective date of the final rule to complete baseline
        inspections to determine the existing condition of their pipelines. The
        final rule went into effect February 15, 2002, meaning that the baseline
        inspection period for these hazardous liquid pipeline operators will not
        end until February 2009.

      • The operators of natural gas transmission pipelines are required to begin
        baseline integrity inspections no later than June 17, 2004, with
        inspections completed no later than December 17, 2012.

Although OPS has made significant progress, several mandates remain
outstanding, with most awaiting final rulemaking. Currently, six mandates from
legislation enacted in 1992 and 1996 remain outstanding. All are over 8 years past
due. Table 3 identifies those mandates OPS has yet to implement since our March
2000 report.

      • Two of the six mandates that would require periodic inspections of all
        offshore and navigable waterway hazardous liquid and natural gas
        pipeline facilities are in rulemaking, and OPS expects final rules to be
        issued in August 2004.

      • One mandate, a report due to Congress on a study concerning how to
        abandon underwater pipelines, is in the clearance process with an
        expected release in July 2004.

      • Two mandates, which are a decade overdue, would define “natural gas
        and hazardous liquid gathering lines” so as to determine which lines can


Findings and Recommendations                                                      11
             and should be regulated. OPS published a Notice of Proposed
             Rulemaking (NPRM) in the Federal Register on natural gas gathering
             lines for comment and discussion in March 1999 and published an
             advisory bulletin in October 2002. This mandate is still under
             discussion, with a supplemental notice expected in December 2004.
             OPS expects to issue a NPRM on hazardous liquid gathering lines for
             comment in December 2004.

        • One mandate is still under discussion, with a final rule expected in
          August 2004. This mandate would clarify a requirement that new and
          replaced hazardous liquid and natural gas transmission pipelines be able
          to accommodate smart pigs.


     Table 3. Status of Outstanding Mandates from Legislation
                      Enacted in 1992 and 1996

Pipeline Act                   Mandate                            Status
 & Section
   1992           Require periodic inspection of   NPRM published and awaiting public
  Sec. 108        all offshore and navigable       comment, final rule expected
                  waterway natural gas pipeline    August 2004
                  facilities
   1992           Require periodic inspection of   NPRM published and awaiting public
  Sec. 207        all offshore and navigable       comment, final rule expected
                  waterway hazardous liquid        August 2004
                  pipeline facilities
   1992           Prepare a report to Congress     Report is in the clearance process,
Sec. 307(b)       on a study concerning how to     report expected July 2004
                  abandon underwater pipelines
   1992           Define and regulate natural      NPRM comments under discussion,
Sec. 109(b)       gas gathering lines              supplemental      notice    expected
                                                   December 2004
   1992           Define and regulate hazardous    OPS is coordinating with the states
Sec. 208(b)       liquid gathering lines           and industry to develop a definition,
                                                   NPRM expected December 2004
   1996           To the extent possible, new      Final rule issued in April 1994, but
 Sec. 4e(1)       and replaced hazardous liquid    enforcement was stayed by OPS for
                  and natural gas transmission     some gas transmission pipelines in
                  pipelines must accommodate       rural areas; final rule on the stay
                  smart pigs                       expected August 2004
NPRM: Notice of Proposed Rulemaking




Findings and Recommendations                                                       12
OPS officials explained that daily workload, staffing, other priorities, and the
unpredictable nature of rulemaking and administrative processing have slowed
implementation of these mandates. For example, they explained that as part of the
rulemaking process, the Office of the Secretary and Office of Management and
Budget each must clear significant rules. Each of these clearances can take as
little time as a day or as long as 90 days.

While we acknowledge rulemaking can be a lengthy and unpredictable process, in
our opinion OPS can and should focus on expediting final rule implementation for
these long-outstanding mandates from legislation enacted in 1992 and 1996, as all
are over 8 years past due with the oldest mandates 11 years past due. Also, the
Secretary has taken an active interest in improving DOT’s rulemaking process and
has emphasized to senior DOT managers the need to ensure that rules are
completed in a timely manner or that problems and issues causing delays are
identified and fixed.


CLOSING THE SAFETY GAP ON NATURAL GAS DISTRIBUTION
PIPELINES
The Nation’s natural gas distribution system makes up 1.8 million miles (over
85 percent) of the 2.1 million miles of natural gas pipelines in the United States.
Distribution is the final step in delivering natural gas to end users such as homes,
businesses, and industries. Nearly all of the natural gas distribution pipelines are
located in highly populated areas, such as business districts and residential
communities, where a rupture could have the most significant consequences.

However, integrity management safety mandates that govern hazardous liquid and
natural gas transmission pipelines do not apply to natural gas distribution
pipelines. For example, the Pipeline Safety Improvement Act of 2002 requires
that the operators of a natural gas facility implement IMPs. However, the IMP
requirement only applies to operators of natural gas transmission pipelines. As
part of the IMP rule, operators of natural gas transmission pipelines are required to
inspect the integrity of their pipelines using one or more of the following
inspection methods: smart pigs, pressure testing, or direct assessment.24

According to officials of the American Gas Association, the initial reason for not
requiring operators of natural gas distribution pipelines to have IMPs is that
distribution pipelines cannot be inspected using smart pigs. The smart pig
technologies currently available cannot be used in natural gas distribution

24
     Operators can choose another technology that demonstrates an equivalent understanding of the integrity of the
     pipeline but only after notifying OPS before the inspection begins.


Findings and Recommendations                                                                                  13
pipelines because the majority of distribution piping is too small in diameter (1 to
6 inches) and has multiple bends and material types intersecting over very short
distances.

The IMP is a risk-management tool designed to improve safety, environmental
protection, and reliability of pipeline operations. That natural gas distribution
pipelines cannot be internally inspected using smart pigs is not by itself a
sufficient reason for not requiring IMPs for operators of natural gas distribution
pipelines. Other elements of the IMP can be readily applied to this segment of the
industry, including but not limited to (1) a process for continual integrity
assessment and evaluation, (2) an analytical process that integrates all available
information about pipeline integrity and the consequences of failure, and (3) repair
criteria to address issues identified by the integrity assessment and data analysis.

Our concern is that the Department’s strategic safety goal is to reduce the number
of transportation-related fatalities and injuries, but natural gas distribution
pipelines are not achieving this goal. Of the major pipeline accidents occurring
from January 1, 1994, through December 31, 2003, OPS’s data show (as seen in
Table 4) accidents in natural gas distribution pipelines (1,228 accidents) were
50 percent fewer than accidents in hazardous liquid and natural gas transmission
pipelines combined (2,458 accidents). However, accidents in natural gas
distribution pipelines have caused more than 4 times the number of fatalities
(174 fatalities) and more than 3.5 times the number of injuries (662 injuries) when
compared to a combined total of 43 fatalities and 178 injuries associated with
hazardous liquid and gas transmission pipeline accidents.


         Table 4. Pipeline Accidents, Fatalities, and Injuries
               January 1994 through December 2003
    Type of         Total     Total     Total               Average Average
    Pipeline      Number of Number of Number of             Number Number
    Segment       Accidents Fatalities Injuries                of         of
                                                            Fatalities Injuries
                                                            per Year per Year
 Natural Gas
 Distribution        1,228           174          662          17.4       66.2
 Hazardous
 Liquid              1,666            17           81           1.7        8.1
 Natural Gas
 Transmission          792            26           97           2.6        9.7




Findings and Recommendations                                                     14
Also, the average number of fatalities and injuries per year caused by natural gas
distribution pipelines (17 and 66, respectively), exceeds the average number of
4 fatalities and 18 injuries per year caused by hazardous liquid and natural gas
transmission pipelines accidents combined. The risk is greater that there will be
more fatalities and injuries when an accident involving natural gas distribution
pipelines occurs, given that nearly all of these pipelines are concentrated in highly
populated areas, both in residential communities and business districts
(.14 fatalities per accident for natural gas distribution versus .01 for hazardous
liquid and .03 for natural gas transmission pipelines).

Furthermore, accidents involving natural gas distribution pipelines can be as
catastrophic as accidents involving hazardous liquids or natural gas transmission
pipelines. For example, on December 11, 1998, in downtown St. Cloud,
Minnesota, a communications crew ruptured an underground plastic gas
distribution pipeline causing an explosion that killed 4 people, seriously injured
1 person, and injured 10 others. Six buildings were destroyed. In another
example, in July 2002, a gas explosion in a multiple-family dwelling in
Hopkinton, Massachusetts, killed 2 children and injured 14 other residents.
Rescue efforts were halted for more than 90 minutes while utility workers
searched for a way to cut off the gas to the site.

Since OPS’s new pipeline safety program is based on managing risks from a
system perspective, it seems contradictory to exclude natural gas distribution
pipelines from integrity management rules, given this segment of the industry’s
safety record over the 10-year period beginning in 1994. For that period, OPS’s
data show that there has been no steady decreasing trend in the number of
accidents, fatalities, and injuries involving natural gas distribution pipelines.

In fact, in the past 3 years, the number of fatalities and injuries from accidents
involving natural gas distribution pipelines has increased while the number of
fatalities and injuries from accidents involving hazardous liquid and natural gas
transmission pipelines has held steady or declined (as seen in Table 5). OPS’s
data show that fatalities and injuries from accidents involving natural gas
distribution pipelines increased from 5 fatalities and 46 injuries in 2001 to
11 fatalities and 58 injuries in 2003. For the same period, fatalities and injuries
from accidents involving hazardous liquid and natural gas transmission pipelines
decreased from 2 fatalities and 15 injuries in 2001 to 1 fatality and 13 injuries in
2003.




Findings and Recommendations                                                      15
             Table 5. Pipeline Fatalities and Injuries for the Period
                        January 2001 to December 2003
             Year                   Natural Gas                   Natural Gas                   Hazardous
                                    Distribution                  Transmission                    Liquids
             2001                    5 Fatalities                  2 Fatalities                 0 Fatalities
                                    46 Injuries                    5 Injuries                  10 Injuries
             2002                    9 Fatalities                  1 Fatality                   1 Fatality
                                    45 Injuries                    5 Injuries                   0 Injuries
             2003                   11 Fatalities                  1 Fatality                   0 Fatalities
                                    58 Injuries                    8 Injuries                   5 Injuries
       3-Year Total                 25 Fatalities                  4 Fatalities                 1 Fatality
                                   149 Injuries                   18 Injuries                  15 Injuries
OPS’s data also show that excavation damage was the leading cause of accidents
involving natural gas distribution pipelines. In the past 5 years (1999-2003),
46 percent of the accidents involving natural gas distribution pipelines were
caused by excavation damages, with a high of 49 percent in 2003. To address this
concern, OPS undertook an initiative called the Common Ground Study of
One-Call Systems and Damage Prevention Best Practices. This initiative involved
a broad spectrum of more than 160 damage prevention stakeholders to identify,
define, and agree on best practices that governed all aspects of damage prevention,
including excavation, at underground facilities. One such best practice of damage
prevention is holding a pre-excavation meeting with owners/operators who have
underground facilities in the area of the proposed excavation.

Although OPS has moved forward with this and other initiatives25 to enhance the
safety of natural gas distribution pipelines, OPS needs to ensure that the pace of its
efforts moves quickly enough given the upward trend in fatalities and injuries
involving these pipelines, as well as the projected increase in distribution pipelines
to meet the increasing demand for natural gas. According to the Department of
Energy, the demand for natural gas in the United States is likely to increase
50 percent by 2020.

OPS has the basic authority to issue standards requiring IMPs that cover natural
gas distribution pipelines. OPS should require operators of natural gas distribution
pipelines to implement some form of pipeline integrity management or enhanced
safety program with the same or similar integrity management elements as the
hazardous liquid and natural gas transmission pipelines. This would be consistent
with OPS’s risk-based approach to overseeing pipeline safety using IMPs to
reduce the risk of accidents that may cause injuries or fatalities to people living or

25
     With OPS support, the American Gas Foundation is sponsoring a study that identifies the practices distribution
     operators use to manage the integrity of their distribution systems and the areas where improvements could be made.


Findings and Recommendations                                                                                        16
working near natural gas distribution pipelines, as well as to reduce property
damage.


          R&D Funding and Pipeline Inspection
                    Technologies
OPS’s R&D program is aimed at enhancing the safety and reducing the potential
environmental effects of transporting natural gas and hazardous liquids through
pipelines. Specifically, the program seeks to advance the most promising
technological solutions to problems that imperil pipeline safety, such as damage to
pipelines from excavation or corrosion. OPS sponsors R&D projects that focus on
providing near-term solutions that will increase the safety, cleanliness, and
reliability of the Nation’s pipeline system.

As is shown in Figure 1, recent R&D funding has focused on damage protection
and leak detection, enhanced operations and controls, improved materials
performance, and mapping and
information integrity. These                 Figure 1 - FY 2003 R&D Budget
projects address technological                         Allocations
solutions that can be quickly           $1,200,000
implemented         (preferably
within 2 years) to improve
pipeline safety.                  $1,700,000
                                                                 $3,970,000


R&D funding has more than
tripled, from $2.7 million in
FY 2001 to $8.7 million in                $1,874,000
FY 2003. Nearly $4 million of                          Damage Protection & Leak Detection
the $8.7 million is funding                            Enhanced Operations & Controls
projects to improve the                                Improved Materials Performance
technologies used to inspect                           Mapping & Information Integrity
the integrity of pipeline
systems in support of the IMP.

R&D projects currently funded have increased in size and scope, from a single
project before 2001 to 22 active projects in 2004. These projects explore a variety
of ways to improve smart pig technologies, develop alternative inspection and
detection technologies for pipelines that cannot accommodate smart pigs, and
improve pipeline material performance. With the increase in R&D spending and
activity, the challenge OPS now faces is seeing these projects through to
completion, without undue delay and expense, to ensure that viable, reliable,
cost-effective technologies become readily available to meet the demands of


Findings and Recommendations                                                             17
increased usage required under the IMP. This becomes an even larger challenge
as an estimated 10 to 15 additional R&D projects are planned to begin in late
2004.

We visited two major research facilities doing work for OPS to evaluate projects’
progress and oversight. Of eight internal inspection research projects we
reviewed, four projects were behind schedule, did not file quarterly performance
reports, or both.

For example, a contract awarded to the Battelle Memorial Institute for a 24-month
project was scheduled to begin October 1, 2002. However, the project was
delayed 12 months due to a lack of industry funding,26 and work did not start until
October 2003. The project was scheduled to be completed in September 2004 but
has been extended another 6 months, with a projected completion date of March
2005. This project is unique in that it will improve the capabilities of smart pigs to
detect and measure both corrosion and mechanical damage. Smart pigs currently
in use can successfully detect and measure corrosion, dents, and wrinkles but are
less reliable in detecting other types of mechanical damage. The expected project
outcome is a smart pig that is simpler to build and use.

At the time of our visits to the research facilities, OPS had just one inspector
monitoring all eight projects. OPS recognized the need to increase its R&D
oversight and has assigned additional staff to monitor the projects. Also, OPS has
developed and implemented an internet-based system to electronically manage
pre-award activities (e.g., issuance of announcements, receipt and review of
proposals). OPS is developing a component to monitor post-award activities, such
as managing project costs, schedules, and performance.

OPS needs to complete its internet-based system component for monitoring
post-award activities of these projects to ensure that viable, reliable, cost-effective
technologies become readily available to meet the requirements of the IMP and to
ensure efficient and effective management of its R&D funds. To augment its
electronic monitoring of project schedule, costs, and performance, OPS also needs
to ensure that staff who oversee the projects make periodic visits to the research
facilities. Contractor performance and product quality are best observed during
on-site visits to the research facilities.




26
     OPS funds up to 50 percent of a project’s costs but no more than $500,000 per project. Under an agreement between
     OPS and the research institutes, project participants are required to contribute at least 50 percent of the project cost.


Findings and Recommendations                                                                                             18
             Training Needs for Smart Pig Operations
To read and interpret the results of a smart pig inspection requires a skilled and
trained inspector. Before FY 2002, there was no OPS course designed to provide
its inspectors with the knowledge and skills required to evaluate smart pigging
programs of natural gas and hazardous liquid pipelines.27 Recognizing the need to
address this issue, in December 2001, OPS implemented such a course. OPS IMP
inspectors are required to take this course as part of their advanced training in
assessments of the pipeline operators’ IMPs. As of May 31, 2004, 110 Federal
and state inspectors have taken the advanced training, with an additional
58 Federal and state inspectors scheduled to do so by the end of 2004.

Also, IMP inspectors are actively overseeing the IMP implementation through
their assessments of hazardous liquid pipeline operators’ IMP plans—the first
segment of the industry required to implement the IMP. As of April 30, 2004,
results from OPS’s IMP assessments disclosed, among other things, that (1) the
63 largest operators of hazardous liquid pipelines have undergone IMP
assessments, (2) smart pigs were used by the pipeline operators about 70 percent
of the time to conduct their baseline integrity inspections of hazardous liquid
pipelines, and (3) more than 20,000 integrity threats were remediated as part of the
operators’ IMPs.

Of the more than 20,000 threats that have been identified and repaired to date,
more than 1,200 required immediate repair, 760 required repairs within 60 days,
and 2,400 required repairs within 180 days. More than 16,300 threats fall into the
category of other repairs where remediation activities are not considered
time-sensitive. OPS’s remediation criteria encompass a broad range of actions,
which include mitigative measures (e.g., reducing the pipeline pressure flow) as
well as repairs that an operator can take to resolve an integrity threat. For
immediate repairs, an operator must temporarily reduce operating pressure or shut
down the pipeline until the operator completes the repairs.

The challenges inspectors face during a review of an operator’s baseline integrity
inspection results is to determine whether OPS’s repair criteria were properly used
to characterize the type of repair required for each threat identified and whether
the operator’s threat remediation plans are adequate to repair or mitigate the threat.
More importantly, however, is that OPS will need to follow up to ensure that the
operator has properly executed its remediation actions within the defined time
limit.



27
     All OPS inspectors are required to take an awareness course on internal inspection technologies as part of their
     9-course basic training.


Findings and Recommendations                                                                                     19
With the expected increase in use of smart pigs as the preferred inspection tool and
with research underway to advance smart pig technology, OPS must now ensure
its inspector workforce knowledge base is commensurate with the increased usage
of and technological advances in smart pigs. OPS’s IMP assessments have found
that operators of hazardous liquids pipelines used smart pigs about 70 percent of
the time to conduct their pipeline inspections and strongly favored the use of smart
pigs over alternative inspection methods available under the IMP. Also, it is
expected that increased funding in smart pig R&D will improve on the technology
to allow more pipeline mileage to be inspected using smart pigs instead of
alternative inspection methods.

Current training course curricula may have to be revised to account for the
increased usage of and advances in the technologies used to inspect the integrity of
pipeline systems. For example, R&D is currently underway to develop a smart pig
that is capable of detecting and measuring both corrosion and mechanical damage.
Smart pigs currently in use can successfully detect and measure corrosion but are
not reliable in detecting mechanical damage. IMP inspectors will need to be
aware of this technological breakthrough when it happens and become familiar
with the function, proper selection, and use of a multi-detecting/measuring smart
pig and its data.


   Pipeline Accident Data Collection and Analysis
Data collection and analysis of pipeline accidents have been longstanding
problems at OPS. In 1997, the NTSB noted significant problems with pipeline
accident data collection and analysis and recommended that OPS revise its
reporting forms and instructions to eliminate overlapping and confusing categories
and to include new, more descriptive causal categories. OPS took over 6 years to
revise all its reporting forms and instructions.

In January 2002, OPS made available new reporting forms and instructions for
accidents involving natural gas transmission and hazardous liquid pipelines,
increasing the number of causal categories from 4 to 25 for natural gas
transmission pipelines and from 7 to 25 for hazardous liquid pipelines. In March
2004, OPS made available a new reporting form and instructions for accidents
involving natural gas distribution pipelines, increasing the number of causal
categories from 5 to 25. The new reporting forms and instructions also require
operators to indicate if the data being provided are initial, supplemental, or final.

With the added causal categories, OPS will have access to far more detailed
information about the various causes of pipeline accidents. Inspectors in the OPS
regions are required to assess accident reports to ensure that the operators are, at a


Findings and Recommendations                                                       20
minimum, complying with the reporting form instructions and providing reliable
and timely data about the accident, which can be verified by requesting additional
accident information from the operator. In the past, the lack of a comprehensive
internal review process has been a weakness in the collection of complete and
accurate accident information.

We examined this internal review process and found that the assessment
procedures varied among OPS’s regions. Some regions reviewed all submitted
reports, others reviewed only reports on interstate pipelines inspected by OPS, and
one region was not reviewing any of the reports. In our discussions about these
inconsistencies, OPS officials stated the procedures were new, being pilot-tested in
one region, and still a work in progress, but they acknowledged the need to ensure
the consistency of regional reviews.

After accidents, OPS needs to effectively assess root causes, identify appropriate
corrective actions, and ensure that the operator provides the most current accident
information when additional information becomes available. To do this, OPS
began improving its process of internal review of accident information by
developing written guidelines and conducting the first of several quarterly sessions
of formal training for personnel responsible for the internal review process.
According to OPS, training will be ongoing until it has established best practices
for internal review of operator accident information.

As more accident data are collected, data analysis becomes an integral component
in assessing and evaluating the performance of the IMP, identifying safety trends,
and reporting program results, such as in the annual performance report to
Congress required under the Government Performance and Results Act. However,
the quality of OPS’s data analysis and reporting is only as good as the timeliness,
completeness, and accuracy of data submitted by the operators. At the time of our
review, the requirement that operators use the new accident reporting forms and
instructions was in the early stages of implementation, and it was too soon to tell
whether the new accident reporting forms and instructions would improve the
comprehensiveness and quality of data.

As we have seen in other DOT programs, the quality and timeliness of the data are
key to an effective program. We recently reported on the Federal Motor Carriers
Safety Administration’s (FMCSA) Motor Carrier Safety Status Measurement
System (SafeStat)28 and found that significant problems existed with the data
motor carriers and the states provide to FMCSA, such as errors and omissions in
the data records. These data problems limited SafeStat’s effectiveness and
introduced bias into the ranking process for targeting high-risk motor carriers.

28
     Report Number MH-2004-034, “Improvements Needed in the Motor Carrier Safety Status Measurement System,”
     February 13, 2004.


Findings and Recommendations                                                                            21
To avoid future problems and to ensure that operators’ data can be relied on to
help target its oversight resources, OPS needs to finalize and implement the best
practices for its internal review process, including procedures to review data
quality to ensure that the operators are providing complete and accurate accident
information. As part of its data quality review, OPS should include reviews of
source documentation to make sure accident data submitted to OPS by the pipeline
operators are complete and accurate. OPS should take enforcement action against
those operators who are not complying with the reporting requirements.


              Closing-out Long-overdue NTSB Safety
                       Recommendations
The NTSB is an independent Federal agency charged, in part, with investigating
pipeline accidents involving a fatality or substantial property damage. NTSB
recommendations—issued to OPS through RSPA—are intended to prevent future
accidents and promote safety. DOT policy requires its Operating Administrations
to reply to NTSB recommendations within 90 days of receipt.                 For
recommendations with which the Operating Administration concurs, the response
must include an implementation timetable. Timetables establish completion dates
and allow RSPA to measure OPS’s progress in implementing NTSB
recommendations. DOT policy also requires that all actions proposed in response
to NTSB’s recommendations be pursued expeditiously.


PROGRESS IN IMPLEMENTING NTSB RECOMMENDATIONS
We found OPS has closed out 21 of 23 NTSB safety recommendations we
identified in our March 2000 report. One of the remaining two open
NTSB recommendations is considered by OPS as being in the close-out phase
(i.e., acceptable action taken by OPS, close-out letter to NTSB for review).29
Nevertheless, some of these recommendations had been open for 15 years, with
acceptable actions just recently having been completed.               For the
21 recommendations OPS closed, we found an average issuance-to-closure time of
6.4 years, with a range of 3.3 years to 17.1 years. Some of the recommendations
had been open since the early 1990s and were the catalysts for many of the
mandates in legislation enacted in 1992 and 1996.

Since our March 2000 report, OPS has shown considerable progress in fully
implementing NTSB recommendations. OPS has received 13 new NTSB
recommendations, of which 8 have been closed; 7 of those 8 recommendations

29
     Exhibit C contains a list of NTSB recommendations that remain open.


Findings and Recommendations                                                  22
were closed within 2 years of issuance. OPS expects the remaining five open
recommendations to be closed by the end of 2005, within 4 years of issuance.

OPS should continue expeditiously implementing all open NTSB
recommendations, especially the recommendations addressing issues that are
fundamental to the integrity of the pipeline system. One such recommendation
still open requires OPS to revise its regulations so that new or replaced pipelines
be designed and constructed with features to mitigate internal corrosion. The
significance of this recommendation cannot be overstated, as corrosion is the
second leading cause of pipeline accidents.


OPS RESPONSES OFTEN NOT TIMELY OR COMPLETE
As we reported in March 2000, OPS’s responses to NTSB recommendations were
often incomplete and not timely: 21 of 23 NTSB recommendations selected for
review were without timetables. Of the 13 new recommendations OPS received
since our March 2000 report, only 3 were processed in accordance with DOT
policy. OPS did not respond to NTSB on five recommendations within the
required 90 days, and five responses did not include an implementation timetable.

OPS officials agreed their processing was deficient for those 10 new
recommendations. Further, they acknowledged they did not have specific written
policy and procedures addressing NTSB recommendation processing. However,
they disagreed that written procedures would correct the problems we identified
and felt a documented process explaining how to accomplish their daily work was
both impractical and unnecessary. Nonetheless, without the additional written
procedural guidance, there is insufficient assurance that key safety
recommendations will be addressed in a timely manner or completely.


     Pipeline Security Roles and Responsibilities
Threats of attacks on the Nation’s pipeline infrastructure existed before
September 11, 2001. For example, in December 1999, Federal agents arrested
two anti-government militia members for plotting to detonate 24 million gallons of
liquid propane at a storage facility in Elk Grove, California. This event prompted
OPS to establish requirements for operators of liquid petroleum gas facilities to
develop:

      • Security procedures, including security patrols of the facility,

      • Instructions for actions to be taken if a security breach occurs,



Findings and Recommendations                                                    23
       • Methods for determining which persons are allowed access to the plant,

       • Positive identification of persons entering the plant,

       • A liaison with local law enforcement to keep them informed about
         current security procedures, and

       • Training of security personnel according to a written plan of instructions
         on security procedures.

For pipelines containing liquids other than liquid petroleum gas, OPS requires
operators to provide protection for each pumping station and other exposed facility
from vandalism and unauthorized entry.

Following the events of September 11, 2001, OPS moved forward on several
fronts to help reduce the risk of terrorist activity against the Nation’s pipeline
infrastructure, such as opening the lines of communication among Federal and
state agencies responsible for protecting the Nation’s critical infrastructure,
including pipelines; conducting pipeline vulnerability assessments and identifying
critical pipeline systems; developing security standards and guidance for security
programs; and working with Government and industry to advance rapid response
and recovery of the pipeline system in the event of a terrorist attack.

To protect the Nation’s pipeline infrastructure, OPS issued new security guidance
to pipeline operators nationwide in September 2002. In the guidance, OPS
requested that all operators develop security plans to prevent unauthorized access
to pipelines and identify critical facilities that are vulnerable to a terrorist attack.
OPS also asked operators to submit a certification letter stating that the security
plan had been implemented and that critical facilities had been identified.

OPS estimates pipeline companies responsible for the operation of about
90 percent of the Nation’s pipelines have submitted a security plan and a
certification letter. During 2003, OPS in conjunction with the Transportation
Security Administration (TSA) initiated a review of operator security plans. The
plans reviewed have been judged responsive to the OPS guidance.


PIPELINE SECURITY ROLES AND RESPONSIBILITIES NEED TO
BE SOLIDIFIED
Unlike its pipeline safety program, OPS’s security guidance is not mandatory;
industry’s participation in a security program is strictly voluntary and cannot be
enforced unless a regulation is issued to require industry compliance. In fact, it is



Findings and Recommendations                                                         24
still unclear what agency or agencies will have responsibility for pipeline security
rulemaking, oversight, and enforcement.

This ongoing issue has caused considerable debate among Federal, state, and local
governments on where the lines of authority should be drawn. Although OPS took
the lead to help reduce the risk of terrorist activity against the Nation’s pipeline
infrastructure following September 11, 2001, OPS has stated it now plays a
secondary role to TSA, which has primary responsibility for ensuring the security
of the Nation’s pipeline system.

Certain steps have been taken to establish what agency or agencies would be
responsible for ensuring the security of the Nation’s critical infrastructure,
including pipelines. For example, in December 2003, Homeland Security
Presidential Directive/HSPD-7:

      • Assigned the Department of Homeland Security (DHS) the
        responsibility for coordinating the overall national effort to enhance the
        protection of the Nation’s critical infrastructure and key resources.

      • Assigned the Department of Energy (DOE) the responsibility for
        ensuring the security of the Nation’s energy, including the production,
        refining, storage, and distribution of oil and gas.

      • Directed DOT and DHS to collaborate (1) on all matters relating to
        transportation security and transportation infrastructure protection, and
        (2) in regulating the transportation of hazardous materials by all modes,
        including pipelines.

Although HSPD-7 directs DOT and DHS to collaborate, it is not clear from an
operational perspective what “to collaborate” encompasses, and it is also not clear
what DOT’s relationship will be with DOE. To be useful in the operating
environment, the delineation of roles and responsibilities between DOT and DHS
needs to be solidified. As a matter of national security, this collaborative effort
should be solidified through a binding legal document, such as a Memorandum of
Agreement or Memorandum of Understanding. Also, OPS needs to seek
clarification on roles and responsibilities between itself and DOE.



RECOMMENDATIONS
We recommend that RSPA ensures that OPS:

   1. Completes its actions on the remaining six mandates from legislation
      enacted in 1992 and 1996.

Findings and Recommendations                                                     25
   2. Require operators of natural gas distribution pipelines to implement some
      form of pipeline integrity management or enhanced safety program with the
      same or similar integrity management elements as the hazardous liquid and
      natural gas transmission pipelines.

   3. Completes its internet-based system for monitoring its R&D project costs,
      schedules, and performance.

   4. Finalizes and implements “best practices” for its internal review process,
      including procedures to review data quality, to ensure that the operators are
      providing current, complete, and accurate accident information. OPS
      should also take enforcement action against those operators who are not
      complying with the reporting requirements.

   5. Completes its actions to close out the remaining five NTSB
      recommendations identified in this report.

   6. Implements a formal internal policy and procedures for responding to
      NTSB recommendations so that key safety recommendations are addressed
      completely and in a timely manner in accordance with DOT policy.

   7. Seeks clarification on roles and responsibilities between itself and DOE.


MANAGEMENT COMMENTS AND OFFICE OF
INSPECTOR GENERAL RESPONSE
In responding to a draft of this report, RSPA agreed in general with our
recommendations and stated that work is underway to address all outstanding
issues identified in the draft report.

OPS provided specific comments on the recommendations, detailing the corrective
actions planned or ongoing to close out our recommendations.               For
Recommendations 1, 3, 4, 5, 6, and the second part of 7, we consider OPS
comments to be positive and constructive, and OPS actions taken and planned for
the recommendations are reasonable. However, for Recommendation 2, RSPA
comments were not fully responsive, and we are requesting some additional
information. We are also withdrawing the first part of Recommendation 7.

OPS’s comments to Recommendations 1, 3, 4, 5, and 6 are summarized below.




Findings and Recommendations                                                      26
• Recommendation 1. Concur. OPS agreed to complete its actions on the
  remaining six mandates from legislation enacted in 1992 and 1996 by
  December 2004.

• Recommendation 3. Concur. OPS is expected to finalize its internet-based
  system for monitoring R&D project costs, schedules, and performance by
  October 2004.

• Recommendation 4. Concur. OPS is currently pilot testing new procedures
  for its internal review process. Expected completion of best practices is March
  2005.

• Recommendation 5. Concur. OPS agreed to complete provided updated
  actions and completion dates for NTSB recommendations that remain open
  since our March 2000 report.

• Recommendation 6. Concur. OPS agreed to close out the remaining five
  NTSB recommendations identified in this report by December 2005.

• Second part of Recommendation 7. Concur. OPS agreed to clarify its
  security roles and responsibilities between itself and DOE.

OPS’s comments and OIG responses to Recommendations 2 are summarized
below.

• Recommendation 2. Concur. OPS stated that before the passage of the Act
  of 2002, it challenged industry to develop a framework to gas distribution
  IMPs, and further stated that industry, state, and Federal regulators are now
  working to develop natural gas distribution IMPs and that a public workshop to
  discuss IMP concepts is planned for December 2004.

Other than indicating that it is working with the states and industry to develop and
IMP for natural gas distribution pipelines and plans to hold a public workshop to
discuss IMP concepts in December 2004, RSPA did not indicate when it expected
to require an IMP for natural gas distribution pipelines. We requested that RSPA
clarify this issue.

We are withdrawing our recommendation that RSPA ensure that OPS petition the
DOT, through RSPA, to execute a Memorandum of Agreement or MOU with
DHS, formalizing the security roles and responsibilities of OPS and DHS’s
Transportation Security Administration.

Since we made this recommendation, DOT’s Deputy Secretary has made it clear
that an MOU is needed, and we understand that the Deputy Secretary has


Findings and Recommendations                                                     27
communicated this to DHS. We hope an MOU between DOT and DHS can be
consummated by September 1, 2004. DOT should keep the appropriate
Congressional committees apprised of its progress in consummating an MOU with
DHS.

In commenting on the findings in the draft report, there was one issue that RSPA
believed needed to be clarified. In the draft report, we stated that natural gas
distribution pipelines were excepted from integrity management safety mandates
that govern hazardous liquid and natural gas transmission pipelines. According to
RSPA:

     The statement was misleading in that it implies that OPS have taken
     action to “except” gas distribution pipelines from the integrity
     management programs. The fact is, Federal law only mandated that
     transmission pipelines be assessed, so the Office of Pipeline Safety
     (OPS) only addressed transmission pipelines first.

We never intended to imply that OPS had excepted natural gas distribution from
the IMPs and are aware that the Pipeline Safety Improvement Act of 2002
mandated IMPs for operators of only natural gas transmission pipelines. Section
14 of the 2002 Act required each operator of a gas pipeline facility subject to
49 United States Code Section 60109 to adopt and implement an IMP. However,
natural gas distribution pipelines are excepted from Section 60109 requirements.
We have revised our report to clarify that operators’ natural gas distribution
pipelines are not required to implement IMPs.




Findings and Recommendations                                                  28
 EXHIBIT A. GAS PIPELINE SYSTEM DIAGRAM




                          Producing Wells


                                                            Natural Gas Pipeline System
                                                            Transmission Line
                      Gathering Lines


                                        Processing
                                             Plant

   Compressor
     Stations



                                                               Liquid Natural Gas Plant

                                                     City
                                                     Gate
Underground
    Storage
                                                                                                Large Volume
                                                                                                    Customer


                      DISTRIBUTION                                                            Meter
                         SYSTEM




                                                                                          Regulator




 EXHI BI T A. Gas Pi peline Syst em Diagram                                                                    29
EXHIBIT B. GLOSSARY OF PIPELINE TERMS

Corrosion             Destruction of a metal by a chemical or electrochemical
                      reaction with its environment.
Distribution          The act or process of delivering gas from the city gate or plant
                      to the consumers.
Distribution System Generally the mains, services, and equipment that carry or
                    control the supply of gas from the point of local supply to and
                    including the sales meters.
Gathering Line        A pipeline, usually of small diameter, used in moving gas or
                      hazardous liquid from the field to a central point.
Gathering System      A network of pipelines transporting natural gas from
                      individual wells to the compressor station, processing point,
                      or main trunk pipeline.
High-Consequence      Regions of the United States where the consequences of a
Area                  hazardous liquid leak or spill could be considered significant.
                      This includes unusually sensitive areas of the environment,
                      dense population areas (urbanized areas identified by the
                      Census Bureau), other populated areas (other areas of
                      concentrated population defined by the Census Bureau), and
                      commercially navigable waterways.
Inline Inspection     A method of inspecting a pipeline using an internal
(ILI)                 inspection device or smart pig. ILI is also known as Internal
                      Inspection or Smart Pigging. Different ILI techniques and
                      tools are designed to detect defects on the internal and
                      external surfaces of the pipe. Defects can include corrosion,
                      dents, metal loss, and cracks.
Interstate Gas        Gas transported in pipelines to be sold and consumed in states
                      other than the state in which the gas was produced.
Intrastate Gas        Gas sold and consumed in the state in which it is produced
                      and not transported in interstate pipelines.




Exhibit B. Glossar y of Pipeline Term s                                         30
Operator             An entity that manages and controls a facility and the product
                     moving through that facility. The operator performs the day-
                     to-day operations, contract scheduling, and communications
                     and routinely monitors, tests, and repairs facilities and/or
                     measurement equipment. The operator is not necessarily the
                     owner. A producer-operator operates a well.
Pipeline             All parts of those physical facilities through which gas or
                     hazardous liquids are moved in transportation, including pipe,
                     valves, and other appurtenances attached to pipe; compressor
                     units; metering stations; regulator stations; delivery stations;
                     holders; and fabricated assemblies.
Smart Pig            An instrumented inspection device that is inserted into the
(Intelligent         pipeline and pushed through the line by pressure of the
Inspection Device)   flowing gas or liquids. Smart pigs can detect certain
                     irregularities in the pipe wall and record the existence,
                     location, and relative severity of the irregularities using
                     recording equipment carried on board the pig. The pig is later
                     recovered and its data examined to identify the existence and
                     severity of pipeline irregularities.
Transmission         Pipelines that transmit gas from a source or sources of supply
System               to one or more distribution centers, to one or more large
                     volume customers, or to a pipeline installed to interconnected
                     sources of supply. In typical cases, transmission lines differ
                     from gas mains in that they operate at higher pressures, they
                     are longer, and the distance between connections is greater.




Exhibit B. Glossar y of Pipeline Term s                                        31
EXHIBIT C. NTSB RECOMMENDATIONS THAT
REMAIN OPEN SINCE OUR MARCH 2000 REPORT

 Rec. No.                  Action Needed                                 Status
and Date
  Issued
P-90-29   Develop and implement, with the assistance of        Acceptable action taken
Issued    the Minerals Management Service, the U.S.            per OPS, close-out letter
10/1/90   Coast Guard, and the U.S. Army Corps of              at NTSB for review
          Engineers, effective methods and requirements
          to bury, protect, inspect the burial depth of, and
          maintain all submerged pipelines in areas
          subject to damage by surface vessels and their
          operations
P-98-25   Require pipeline system operators to precisely       OPS is working with the
Issued    locate and place permanent markers at sites          Common Ground Alliance
10/16/98 where their gas and hazardous liquid pipelines        on a best practice, closure
          cross navigable waterways                            expected December 2005
P-01-02   Require that excess flow valves be installed in      OPS        states     work
Issued    all new and renewed gas service lines,               continues,          NPRM
6/22/01   regardless of a customer’s classification, when      expected summer of 2005
          the operating conditions are compatible with
          readily available valves
P-02-01   Establish quantitative criteria, based on            Acceptable action taken
Issued    engineering evaluations, for determining             per OPS, close-out letter
8/2/02    whether a wrinkle may be allowed to remain in        at NTSB for review
          a pipeline
P-02-04   Develop and issue guidance to pipeline               OPS states NTSB will
Issued    operators on specific testing procedures that can    close based on issuance of
10/11/02 be used to approximate actual operations during       valve testing guidance
          the commissioning of a new pumping station or        bulletin, closure expected
          the installation of a new relief valve and           November 2004
          determine during annual tests whether a relief
          valve is functioning properly
P-03-01   Require that new or replaced pipelines be            OPS      is evaluating
Issued    designed and constructed with features to            rulemaking    options,
2/27/03   mitigate internal corrosion                          NPRM expected summer
                                                               of 2005




EXHI BI T C. NTSB Recommendations That Remain Open Si nce Our
March 2000 Report                                                                      32
 Rec. No.                 Action Needed                              Status
and Date
  Issued
P-03-03   Evaluate OPS’s pipeline operator inspection OPS states work is
Issued    program to identify deficiencies that resulted in completed, closure is
2/27/03   the failure of inspectors, before the Carlsbad, expected in October 2004
          NM, accident, to identify the inadequacies in
          the El Paso Natural Gas Company’s internal
          corrosion control program; implement the
          changes necessary to ensure adequate
          assessments of pipeline operator safety
          programs
OPS: Office of Pipeline Safety
NPRM: Notice of Proposed Rulemaking
NTSB: National Transportation Safety Board




EXHI BI T C. NTSB Recommendations That Remain Open Si nce Our
March 2000 Report                                                              33
EXHIBIT D. MAJOR CONTRIBUTORS TO THIS
REPORT
THE FOLLOWING INDIVIDUALS CONTRIBUTED TO THIS REPORT.



  Name                                 Title

  Scott Macey                          Program Director

  Greggory S. Bond                     Project Manager

  Stephen L. Jones                     Senior Auditor

  Kim P. Tieu                          Senior Auditor

  Earl G. Kindley                      Auditor

  Robert Y. Lee                        Auditor

  Susan M. Zimmerman                   Auditor

  Kathleen Huycke                      Writer-Editor

  Petra Swartzlander                   Statistician




Exhibit D. Major Contributors to This Report              34
APPENDIX. MANAGEMENT COMMENTS




                                                                   1




1
    Only slides 14 and 15 have been included in this OIG report.
                                                                       35
Appendix. Management Comments
                                36
Appendix. Management Comments
OPS RESPONSE TO DRAFT REPORT RECOMMENDATIONS –
PROPOSED ACTIONS AND COMPLETION DATES


  1. Completes its actions on the remaining six mandates from legislation enacted in
  1992 and 1996.

  Response: Please note updated actions and completion dates in the status column
  of the following table.

             Status of Outstanding Mandates from Legislation
                        Enacted in 1992 and 1996

     Pipeline
      Act &                  Mandate                                Status
     Section
                  Require periodic inspection of    Notice of Proposed Rulemaking
       1992       all offshore and navigable        (NPRM) published and awaiting public
     Sec. 108     waterway natural gas pipeline     comment. Final rule expected
                  facilities                        August 2004.
                  Require periodic inspection of    NPRM published and awaiting public
      1992        all offshore and navigable        comment. Final rule expected
     Sec. 207     waterway hazardous liquid         August 2004.
                  pipeline facilities
                  Prepare a report to Congress on
       1992                                         Report is in clearance process. Report
                  a study concerning how to
    Sec. 307(b)                                     expected July 2004.
                  abandon underwater pipelines
                  Define and regulate natural gas   NPRM comments under discussion,
       1992
                  gathering lines                   supplemental notice expected
    Sec. 109(b)
                                                    December 2004.
                  Define and regulate hazardous     OPS is coordinating with the states and
       1992
                  liquid gathering lines            industry to develop a definition, NPRM
    Sec. 208(b)
                                                    expected December 2004.
                  To the extent possible, new and   Final rule issued in April 1994, but
                  replacement natural gas           enforcement was stayed by OPS for
      1996        transmission pipelines, or        some gas transmission pipelines in
    Sec. 4e(1)    hazardous liquid pipeline         rural areas; final rule on the stay is
                  facilities, must accommodate      expected in December 2004.
                  internal inspection devices




Appendix. Management Comments                                                                 37
  2. OPS should require operators of natural gas distribution pipelines to implement
  some form of pipeline integrity management or enhanced safety program with the
  same or similar integrity management elements as the hazardous liquid and natural
  gas transmission pipelines.

  Response: Before the passage of the Pipeline Safety Improvement Act of 2002
  (PSIA) OPS challenged the industry to develop a framework for gas distribution
  integrity management programs. OPS made these challenge to the American Gas
  Association on May 13, 2002 and to the American Public Gas Association on
  August 20, 2002. The industry, state and Federal Regulators are now working to
  develop a natural gas distribution integrity management program. A public
  workshop to discuss concepts an effective gas distribution integrity management
  program is planned for December 2004.

  3. Completes its internet-based system for monitoring its R&D projects’ costs,
  schedules, and performance.

  Response: OPS will finalize its internet-based system in conjunction with the
  publication of the fourth R & D Broad Agency Announcement. Expected
  completion is October 2004.

  4. Finalizes and implements “best practices” for its internal review process,
  including procedures to review data quality, to ensure that the operators are
  providing current, complete, and accurate accident information. OPS should also
  take enforcement against those operators who are not complying with the
  reporting requirements.

  Response: OPS is currently pilot testing new procedures with all of the regional
  offices. Each region is reviewing monthly status reports and the data team is
  holding quarterly meetings to develop best practices. OPS currently enforces
  accident reporting requirements. Expected completion of “best practices” is
  March 2005.

  5. Completes its actions to close out the remaining five NTSB recommendations
  identified in this report.

  Response: Please note updated statements on actions and completion dates in the
  status column of the following table.




Appendix. Management Comments                                                          38
NTSB RECOMMENDATIONS THAT REMAIN OPEN SINCE OIG’S
MARCH 2000 REPORT
 Recommendation
                                          Action
    No. and Date                                                                   Status
                                          Needed
       Issued
P-90-29            Develop and implement, with the assistance of the        OPS has taken
Issued 10/1/90     Minerals Management Service, the U.S. Coast              acceptable action.
                   Guard, and the U.S. Army Corps of Engineers,             Close-out letter is at
                   effective methods and requirements to bury,              the NTSB for review.
                   protect, inspect the burial depth of, and maintain all
                   submerged pipelines in areas subject to damage by
                   surface vessels and their operations.
P-98-25            Require pipeline system operators to precisely        OPS is working with
Issued 10/16/98    locate and place permanent markers at sites where     the Common Ground
                   their gas and hazardous liquid pipelines cross        Alliance on a best
                   navigable waterways.                                  practice. OPS
                                                                         expects to request
                                                                         closure December
                                                                         2005.
P-01-02            Require that excess flow valves be installed in all   OPS continues to
Issued 6/22/01     new and renewed gas service lines, regardless of a    work on this
                   customer’s classification, when the operating         controversial issue.
                   conditions are compatible with readily available      OPS plans to publish
                   valves.                                               a NPRM in the
                                                                         summer of 2005.
P-02-01            Establish quantitative criteria, based on engineering OPS has taken
Issued 8/2/02      evaluations, for determining whether a wrinkle may acceptable action.
                   be allowed to remain in a pipeline.                   Close out letter is at
                                                                         the NTSB for review.
P-02-04            Develop and issue guidance to pipeline operators on OPS expects the
Issued 10/11/02    specific testing procedures that can be used to       NTSB will close
                   approximate actual operations during the              recommendation
                   commissioning of a new pumping station or the         based on issuance of
                   installation of a new relief valve and determine      a valve testing
                   during annual tests whether a relief valve is         guidance bulletin.
                   functioning properly.                                 OPS expects to
                                                                         publish a bulletin and
                                                                         request closure in
                                                                         November 2004.
P-03-01            Revise 49 Code of Federal Regulations Part 192 to OPS is evaluating
Issued 2/27/03     require that new or replaced pipelines be designed    rulemaking options.
                   and constructed with features to mitigate internal    OPS estimated
                   corrosion.                                            publication of a
                                                                         NPRM in the summer
                                                                         of 2005.



   Appendix. Management Comments                                                                     39
P-03-03              Evaluate OPS’s pipeline operator inspection             This recommendation
Issued 2/27/03       program to identify deficiencies that resulted in the   is addressed by gas
                     failure of inspectors, before the Carlsbad, New         integrity management
                     Mexico, accident, to identify the inadequacies in the   inspection protocols,
                     El Paso Natural Gas Company’s internal corrosion        inspector training and
                     control program. Implement the changes necessary        new NACE standards
                     to ensure adequate assessments of pipeline operator     for internal corrosion.
                     safety programs.                                        OPS expects to
                                                                             request closure in
                                                                             October 2004.


      6. Implements a formal internal policy for responding to NTSB recommendations
      so that key safety recommendations are addressed completely and in a timely
      manner in accordance with DOT policy.

      Response: OPS is using both the DOT and RSPA policies and procedures for
      addressing NTSB recommendations.

      7. Petition the DOT, through RSPA, to execute a Memorandum of Agreement or
      Memorandum of Understanding with DHS, formalizing the security roles and
      responsibilities of OPS and TSA. OPS should also seek clarification on the
      delineation of roles and responsibilities between itself and DOE.

      Response: There is no need for OPS to petition the Department for establishment
      of a MOU with DHS. The Deputy Secretaries of DOT and DHS have already
      agreed to produce an MOU between DOT and DHS on security matters. It is to be
      a general agreement supplemented with annexes on specific topics, with the first
      three being rail security; transit security and hazmat security. A future annex on
      pipeline security will follow. This is a Departmental priority to be completed as
      soon as practical. OPS will clarify its roles and responsibilities regarding security
      with DOE by November 2004.




   Appendix. Management Comments                                                                       40
                                     James K. O’Steen



                                     Dep. Assoc. Admin. for Pipeline Safety



                                     May 13, 2002




     Appendix. Management Comments
41
                 Gas Distribution
                  • Outside force damage major cause of
                    pipeline failure
                  • Time to address integrity management
                    program for distribution systems
                  • Need to develop a framework for
                    distribution IMP
                  • Damage prevention will be a major part
                  • Industry efforts in operational excellence
                    have been great
                  • Challenge you to reconstitute quality teams
                    to address distribution IMP framework
42




     Appendix. Management Comments
                                     James K. O’Steen



                                     Dep. Assoc. Admin. for Pipeline Safety



                                     August 20, 2002




     Appendix. Management Comments
43
                 Gas Distribution Integrity
                 Management
                  • Need to develop a framework for a
                    distribution IMP
                  • Outside force damage major cause of
                    pipeline failure
                  • Damage prevention will be a major part
                  • Industry efforts in operational excellence
                    will also play a major part
                  • Challenge you to start addressing a
                    distribution IMP framework
44




     Appendix. Management Comments
Appendix. Management Comments
                                45
Appendix. Management Comments   46
Appendix. Management Comments   47
